December 8, 2006




     Report on FY 2005 DoD Purchases
             Made Through the
        Department of the Treasury

                   D-2007-032
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ADA                   Antideficiency Act
ARC                   Administrative Resources Center
BMS                   Business Management System
BPA                   Blanket Purchase Agreement
COTR                  Contracting Officer Technical Representative
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
IGCE                  Independent Government Cost Estimate
IG                    Inspector General
JPRA                  Joint Personnel Recovery Agency
MILCON                Military Construction
MIPR                  Military Interdepartmental Purchase Request
NAVFAC                Naval Facilities Engineering Command
OIG                   Office of Inspector General
O&M                   Operation and Maintenance
QASP                  Quality Assurance Surveillance Plan
RDT&E                 Research, Development, Test, and Evaluation
USD(C)/CFO            Under Secretary of Defense (Comptroller)/ Chief Financial Office
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                      December 8,2006


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER

SUBJECT: Report on FY 2005 DoD Purchases Made Through the Department of the
         Treasury (Report No. D2007-032)

         We are providing this report for your information and use. The Under Secretary
of Defense (Comptroller)/Chief Financial Officer provided comments to each
recommendation. Although not requested, the Under Secretary of Defense for
Acquisition, Technology, and Logistics, and the Managing Director of the Treasury
Franchise Fund provided comments. We considered management comments on the draft
of this report when preparing the final report. The complete text of the comments is in
the Management Comments section of the report.
        The Under Secretary of Defense (Comptroller)/ChiefFinancial Officer comments
conformed to the requirements of DoD Directive 7650.3; therefore, additional comments
are not required.
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Richard B. Jolliffe at (703) 604-9201 @SN 664-9201) or Mr. Terry L. McKinney
at (703) 604-9288 (DSN 664-9288). See Appendix E for the report distribution. The
audit team members are listed inside the back cover.
                -


                                           Mary L. Ugone
                                       Deputy kspectir General
                                             for Auditing


cc: Inspector General, Department of the Treasury
                Department of Defense Office of Inspector General
Report No. D2007-032                                                    December 8, 2006
   (Project No. D2005-D000CF-0275.000)

                   FY 2005 DoD Purchases Made Through the
                         Department of the Treasury

                                 Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and financial managers should read this report because it discusses numerous
problems concerning planning, funding, and reviewing purchases made through the
Department of the Treasury entity called FedSource. This report also discusses 21
potential Antideficiency Act violations.

Background. This report is one of a series of reports on DoD purchases made through
non-DoD activities. Section 811 of Public Law 109-163, “Ronald W. Reagan National
Defense Authorization Act for Fiscal Year 2006,” requires for each covered non-Defense
agency, the Inspector General of the Department of Defense and the Inspector General of
such non-Defense agency to jointly review “procurement policies, procedures, and
internal controls of such non-defense agency that are applicable to the procurement of
property and services on behalf of the Department by such non-defense agency.” This
report covers DoD purchases made through the Department of the Treasury. The
Department of the Treasury Office of the Inspector General will issue a separate report to
its department.

To perform the audit we jointly examined the Department of the Treasury contracting
entity, FedSource, which processed 19,709 contract actions consisting of task orders and
modifications in FY 2005 amounting to approximately $405.1 million. FedSource
received 9,199 Military Interdepartmental Purchase Requests totaling $405.8 million in
FY 2005 to fund DoD requirements. The primary function of FedSource is to award and
administer task orders on behalf of customer agencies for commonly required services.
FedSource provides integrated contract and financial administration services to over
2,500 Federal customers.

Results. DoD and Department of the Treasury FedSource management and contracting
officials did not comply with appropriations law, the Federal Acquisition Regulation, and
Defense procurement regulations when making purchases through FedSource. We
reviewed 61 task orders valued at approximately $37.8 million at 3 FedSource Centers.
The requirements and funding for these orders were initiated by 10 DoD activities. We
found the following.

               •   Fifty-one (of 61) task orders valued at $34.6 million had either an
                   inadequate interagency agreement or no agreement.

               •   Sixty-one (of 61) task orders valued at $37.8 million were not
                   supported by documentation showing that market research was
                   performed.
               •   Fifty-two (of 61) task orders valued at $36.3 million contained either
                   inadequate or no documentation to support price reasonableness.

               •   Forty-one (of 61) task orders valued at $32.6 million were awarded
                   with inadequate or no competition.

               •   Fifty-eight (of 61) task orders valued at $37.4 million had inadequate
                   contract surveillance plans.

               • Twenty-one (of 61) task orders valued at $24.8 million were
                   improperly funded resulting in potential Antideficiency Act violations.
As a result, DoD activities did not obtain the most cost-effective goods and services to
meet valid operational requirements in compliance with laws and regulations. We also
found $19.6 million in DoD funds at FedSource that are expired or otherwise unavailable
to support DoD operations. The DoD internal controls were not adequate. We identified
a material internal control weakness in the administration of DoD purchases through a
non-Defense agency.

Recommendations addressing interagency agreements, market research, price
reasonableness, and surveillance to the Under Secretary of Defense for Acquisition,
Technology, and Logistics are included in our report D-2007-007 dated October 30,
2006, “FY 2005 DoD Purchases Made Through the General Services Administration.”
We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer oversee efforts by DoD activities to deobligate $19.6 million in expired funds that
are currently on FedSource’s accounting records. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer should also work with the Department of the
Treasury to develop a reporting mechanism to identify and monitor Military
Interdepartmental Purchase Request balances at FedSource. Specifically, recurring
reports should be obtained from the Department of the Treasury that identify Military
Interdepartmental Purchase Requests, uncommitted fund balances, amounts obligated,
amounts expended, expired funds, and service fees charged. Recommendations to the
Under Secretary of Defense (Comptroller)/ Chief Financial Officer to initiate preliminary
reviews regarding potential Antideficiency Act violations listed in Appendix D are in the
draft audit report, “Potential Antideficiency Act Violations on DoD Purchases Made
Through Non-DoD Agencies.” Recommendations to the Department of the Treasury are
included in a report being prepared by the Department of the Treasury Inspector General.
(See the Finding section of the report for the recommendations contained in this report).

Management Comments and Audit Response. The Acting Deputy Chief Financial
Officer concurred with our recommendations stating the office is working with the
Department of Treasury to identify and facilitate the return of expired or excess funding.
In addition, the Acting Deputy stated his office will be working with the Department of
the Treasury to provide recurring reports to enhance the monitoring and timely
deobligations of expired or excess funding. We also received comments from the Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics, and the
Managing Director of the Treasury Franchise Fund that generally concurred with our
recommendations. A discussion of management comments is in the Finding section of
the report and the complete text is in the Management Comments section.


                                            ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     4

Review of Internal Controls                                                    4

Finding
     DoD Use of FedSource Services                                             5

Appendixes
     A.   Scope and Methodology                                               25
     B.   Prior Coverage                                                      27
     C.   Purchases’ Deficiencies                                             29
     D.   Potential Antideficiency Act Violations                             33
     E.   Report Distribution                                                 41

Management Comments
     Office of the Under Secretary of Defense for Acquisition, Technology,
         and Logistics                                                        43
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
         Officer                                                              44
     Managing Director, Treasury Franchise Fund                               46
Background
    This audit was performed in accordance with Public Law 109-163, “National
    Defense Authorization Act for Fiscal Year 2006,” January 6, 2006, which states
    in Section 811:

           (a) INSPECTOR GENERAL REVIEWS AND DETERMINATIONS. — (1) IN
           GENERAL.—For each covered non-defense agency, the Inspector General of the
           Department of Defense and the Inspector General of such non-defense agency shall, not
           later than March 15, 2006, jointly—

                   (A) review—

                            (i) the procurement policies, procedures, and internal controls of such
                            non-defense agency that are applicable to the procurement of property
                            and services on behalf of the Department by such non-defense agency;
                            and

                            (ii) the administration of those polices, procedures, and internal
                            controls; and

                   (B) determine in writing whether—

                            (i) such non-defense agency is complaint with defense procurement
                            requirements;

                            (ii) such non-defense agency is not compliant with defense
                            procurement requirements, but has a program or initiative to
                            significantly improve compliance with defense procurement
                            requirements; or

                            (iii) neither of the conclusions stated in clauses (i) and (ii) is correct in
                            the case of such non-defense agency.


    Section 811 states that the Department of the Treasury is one of the covered non-
    Defense agencies to be reviewed. Separate audit reports will address DoD
    purchases made through the other covered non-Defense agencies—the
    Department of the Interior, General Services Administration, and the National
    Aeronautics and Space Administration.

    To comply with the FY 2006 Defense Authorization Act, the DoD Office of
    Inspector General (OIG) and the Department of the Treasury Inspector General
    (IG) reviewed contract actions made by the Department of the Treasury on behalf
    of DoD. In FY 2005, FedSource processed 19,709 contract actions consisting of
    task order contracts and modifications valued at $405.1 million. FedSource
    received 9,199 DoD Military Interdepartmental Purchase Requests (MIPR)
    valued at $405.8 million in FY 2005. We selected 61 task order contracts valued
    at approximately $37.8 million for review. We visited three FedSource Centers


                                              1
and the Department of the Treasury, Bureau of the Public Debt, Administrative
Resources Center.

Treasury Franchise Fund. The Government Management Reform Act of 1994
authorizes the establishment of the Treasury Franchise Fund Pilot Program. In
2004, Public Law 108-447, “Consolidated Appropriations Act, 2005,” section 219
and section 101(f) of the Department of the Treasury Appropriations Act
permanently establish the Treasury Franchise Fund. The Department of the
Treasury Appropriations Act provides specific statutory requirements for the
Treasury Franchise Fund and the use of Non-Economy Act Orders. The Treasury
Franchise Fund is an entrepreneurial Governmental enterprise established to
provide common administrative support services on a competitive and fully cost-
reimbursable basis to other components within Treasury and to outside agencies.
The Treasury Franchise Fund offers a variety of services including accounting,
travel, procurement, human resources, project support, digital copiers/document
automation, professional development training and consulting, and customer
satisfaction measurement. The Treasury Franchise Fund mission is to operate in a
businesslike manner by creating and maintaining a business relationship and
environment that promotes customer participation and satisfaction through
delivery of quality performance, teamwork, and continuous improvement, both in
service delivery and economic benefit.

The Treasury Franchise Fund is made up of four individual Franchise Business
Activities including the Administrative Resource Center, FedSource, Treasury
Agency Services, and the Federal Consulting Group. FedSource is the principle
business activity that handles contracts for DoD. These business activities are
required to recover their full costs of doing business and are allowed to retain up
to four percent of their total annual income. To cover costs, the Franchise
Business Activity charges fees for its services. Congress anticipated that the
franchise funds would be able to provide common administrative services more
efficiently than Federal agencies’ own personnel. The original operating
principles for franchise funds included offering services on a fully competitive
basis, using a comprehensive set of performance measures to assess the quality of
franchise fund services, and establishing cost and performance benchmarks
against their competitors (other Government organizations providing the same
types of services). The Treasury Franchise Fund vision is to become the
preeminent administrative service provider in the Federal Government by
energizing a shared-services business model that can offer marketplace success in
the Government administrative support arena.

        Administrative Resources Center. The Administrative Resources
Center (ARC) is an office within the United States Department of the Treasury,
Bureau of the Public Debt located in Parkersburg, West Virginia. The ARC is
one of the four activities making up the Treasury Franchise Fund. The ARC
Procurement Division, a division within the ARC, provides acquisition support
through awards and administration of high-dollar complex service and supply
contracts. The ARC Procurement Division awarded the multiple-award contracts,
single-award contracts, blanket purchase agreements (BPA), and small business
contracts for FedSource. The ARC maintains these contracts and the FedSource
Centers place task orders against these contract vehicles to fulfill their customer
needs.

                                     2
FedSource. As mentioned above, FedSource is one of the four Departments of
the Treasury Franchise Fund businesses. FedSource consists of seven operations
centers located in San Antonio, Baltimore, Chicago, Cincinnatti, St. Louis,
Seattle, and Los Angeles. The FedSource, Baltimore, St. Louis, and Los Angeles
offices are acquisition centers with ability to issue, negotiate, and award task
orders. The primary function of FedSource is to award and administer task orders
on behalf of customer agencies for commonly required goods and services.
FedSource provides integrated contract and financial administration services to
over 2,500 Federal customers. FedSource’s intent is to influence its buying
power through its marketplace presence to obtain pricing that would otherwise be
unavailable to agencies purchasing these services on their own. The stated goal
of FedSource is to provide an intelligent, alternative source for the effective
delivery of administrative support services. In addition, FedSource provides
surge capability to meet the customer’s mission needs. The overall FedSource
mission is to influence commercial and industry best practices to offer innovation
in Government-to-Government procurement and contract administration for
Federal managers.

FedSource Initiatives. FedSource developed policies and procedures for
refining its process to review requirements and to issue and administer contracts.
A Government Accountability Office (GAO) report, “Interagency Contracting:
Franchise Funds Provide Convenience, but Value to DoD is Not Demonstrated,”
July 2005, contributed to the contract changes undertaken by FedSource. GAO
reported that FedSource did not ensure competition took place before awarding its
contracts and did not document price analyses. In addition, task orders were
being awarded by personnel who were not warranted contracting officers.
FedSource transitioned to warranted contracting officers (Defense Acquisition
Workforce Improvement Act [DAWIA] certified) to issue all task orders effective
July 2005.

FedSource initiatives began prior to our review to address GAO issues.
FedSource process changes resulted in standardization of acquisition functions.
FedSource responded promptly by evaluating and subsequently terminating the
FedSource Center in Beaufort, South Carolina, when it determined that the
contracting procedures at Beaufort were deficient. Beaufort’s workload was
distributed to the other centers to finalize.

FedSource realigned its organization to avoid duplication of services and to
reduce administrative support costs. For example, the FedSource Los Angeles
Center has the primary responsible for fulfilling customer construction
requirements. FedSource developed policies to cover contract areas such as
interagency acquisitions, independent Government cost estimates, and quality
assurance surveillance plans (QASP). Although a positive step, the procedures
need approval signatures and dates to establish a baseline for their
implementation. FedSource standardized the customer request form, ordering
procedures for multiple-award contracts, and statements of work for task orders to
ensure contracting data support the procurement. FedSource’s plan to consolidate
multiple task order awards into projects will improve tracking of customer
projects. Prior to October 2004, each FedSource Center maintained its own cost
data records and had no way to access and share information timely between the
offices. However, FedSource since implemented the Business Management

                                    3
     System (BMS) that standardized financial management and serves as a tool that
     increases the capability to manage customer funds and improve appropriation
     fund and expenditure reporting. As indicated, FedSource management
     implemented actions to strengthen the acquisition process and improve
     procedures to fulfill customer’s requirements; additional contract process
     improvements should continue to fully address conditions identified during the
     review.

Objectives
     Our overall audit objective was to review DoD procedures for purchases made
     through Department of the Treasury-assisted acquisitions. Specifically, we
     examined the policies, procedures, and internal controls to determine whether
     there was a legitimate need for DoD to use the Department of the Treasury,
     whether DoD clearly defined requirements, whether the Department of the
     Treasury and DoD properly used and tracked funds, and whether the Department
     of the Treasury complied with Defense procurement requirements. We also
     examined how the Department of the Treasury accepts and fulfills the DoD
     requirements. See Appendix A for a discussion of the scope and methodology.
     See Appendix B for prior coverage related to the objectives.



Review of Internal Controls
     At the sites visited, we identified material internal control weaknesses as defined
     by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
     Procedures,” January 4, 2006. DoD organizations are required to ensure the
     acquisition strategy is in the best interest of the Government. The sites we visited
     encountered problems while implementing and executing policy. Furthermore,
     contracting, financial, and accounting officials did not comply with regulations
     and statutes. DoD organizations should incorporate the regulations and statutes
     associated with contracting and funding. Contracting, financial, and accounting
     officials should have the necessary training and knowledge to properly execute
     the orders. Implementing the recommendations in this report should improve
     contracting procedures for orders awarded using non-DoD contracts. We are
     making no recommendations related to funding problems because DoD IG audit
     report, “Potential Antideficiency Act Violations on DoD Purchases Made
     Through Non-DoD Agencies,” due out in FY 2007, contains recommendations
     that should correct the material funding weaknesses identified in this report. A
     copy of these reports will be provided to the senior official responsible for
     internal controls in the Office of the Under Secretary of Defense
     (Comptroller)/Chief Financial Officer (OUSD(C)/CFO).




                                          4
           DoD Use of FedSource Services
           DoD and the Department of the Treasury FedSource management and
           contracting officials did not comply with appropriations law, the Federal
           Acquisition Regulation (FAR), and DoD procurement regulations when
           making purchases through FedSource. We reviewed 61 task orders valued
           at approximately $37.8 million awarded by FedSource contracting officers
           on behalf of DoD activities. Of 61 task orders reviewed we determined the
           following.

                 •   Fifty-one (of 61) valued at $ 34.6 million had either no
                     interagency agreement or an interagency agreement that lacked
                     specific details;

                 •   Sixty-one (of 61) valued at $37.8 million contained either
                     inadequate or no documentation of market research;

                 •   Fifty-two (of 61) valued at $36.3 million contained either
                     inadequate or no documentation to support price reasonableness;

                 •   Forty-one (of 61) valued at $32.6 million had either inadequate or
                     no competition;

                 •   Fifty-eight (of 61) valued at $37.4 million had inadequate contract
                     surveillance plans; and

                 •   Twenty-one (of 61) valued at $24.8 million were improperly
                     funded resulting in potential Antideficiency Act violations.

            These conditions occurred because of a lack of planning and lack of
            oversight coordination between FedSource and DoD. Also, both DoD and
            FedSource personnel were unclear on the availability and use of funds
            transferred by DoD to FedSource using MIPRs. Mismanagement and lack
            of oversight of the funds transferred to FedSource over the last 4 years
            resulted in the expiration or unavailability of DoD funds. Near the end of
            our audit, Treasury accounting records showed $19.6 million in expired
            DoD funds that should be returned to DoD. Further, DoD organizations
            making purchases through FedSource had no assurance that FedSource
            based purchases on best value practices. Although both DoD and
            FedSource were taking initiatives to improve the contracting process,
            additional improvements are needed.


Contracting Criteria
     Acquisition Planning. FAR Subpart 7.102(b), “Policy,” states that agencies shall
     perform acquisition planning and conduct market research for all acquisitions in
     order to promote and provide for acquisition of commercial items or to meet
     agency needs, and to allow for full and open competition to the maximum extent
     possible, with regard to the nature of the supplies or services to be acquired. This
                                          5
planning shall integrate the efforts of all personnel responsible for significant
aspects of the acquisition. FAR Part 10, “Market Research,” prescribes the
policies and procedures for conducting market research to arrive at the most
suitable approach to acquiring, distributing, and supporting supplies and services.
Agencies must use the results of market research to determine the sources capable
of satisfying the agency’s requirements. FAR Subpart 7.105, “Contents of
Written Acquisition Plans,” requires organizations to consider acquisition
alternatives and prospective sources of supplies and services that will meet their
needs. These actions should be conducted early in the procurement planning
process.

Defense Federal Acquisition Regulation Supplement Criteria. Defense
Federal Acquisition Regulation Supplement (DFARS) Subpart 217.7802,
“Policy,” implements guidance and policy to comply with the Acting Under
Secretary for Acquisition, Technology, and Logistics and the Principal Deputy
Under Secretary of Defense (Comptroller) in the October 29, 2004, memorandum,
“Proper Use of Non-DoD Contracts,” (the DoD October 29, 2004, Memorandum)
which introduces controls to ensure that non-DoD contracts are the best method to
satisfy DoD requirements. The DFARS states that:
       Departments and agencies shall establish and maintain procedures for
       reviewing and approving orders placed for supplies and services under
       non-DoD contracts, whether through direct acquisition or assisted
       acquisition, when the amount of the order exceeds the simplified
       acquisition threshold. These procedures shall include—
            (a) Evaluating whether using a non-DoD contract for the
                acquisition is in the best interest of DoD. …
            (b) Determining that the tasks to be accomplished or supplies to
                be provided are within the scope of the contract to be used;
            (c) Reviewing funding to ensure that it is used in accordance with
                appropriation limitations;
            (d) Providing unique terms, conditions, and requirements to the
                assisting agency for incorporation into the order or contract as
                appropriate to comply with all applicable DoD-unique
                statutes, regulations, directives, and other requirements; and
            (e)     Collecting and reporting data on the use of assisted
                acquisition for analysis.


Interagency Agreements. Section 1535, title 31, United States Code
    (31 U.S.C. 1535), prescribes the policy for an agency or major
    organizational unit within the agency to place orders within the agency or
    another organization for goods or services, if:

            •   amounts are available;

            •   the head of the ordering agency or unit decides the order is in the
                best interest of the United States Government;

            •   the official or unit to fill the order is able to provide or get by
                contract the ordered goods or services; and

                                          6
            •   the agency official decides the goods or services cannot be
                contracted as conveniently or as cheaply by a commercial
                enterprise.

These orders are Economy Act orders and authorize agencies to enter into
mutual agreements to obtain supplies or services by an interagency acquisition.
Economy Act orders apply when other specific statutory authority does not exist.
FedSource has its own independent statutory authority and orders placed under
their authority are not required to reference the Economy Act to purchase from
them.

DoD Policy on Interagency Agreements. DoD Instruction 4000.19,
“Interservice and Intragovernmental Support,” August 9, 1995, implements
policies, procedures, and responsibilities for intragovernmental support as a result
of agreements among Federal Government activities. DoD organizations may
enter into interagency agreements with non-DoD Federal activities:

            •   when funding is available to pay for the support,

            •   the agreement is in the best interest of the Government,

            •   the supplying activity is able to provide the support,

            •   the support cannot be provided as conveniently or economically
                by a commercial enterprise, and

            •   the agreement does not conflict with any other agency’s authority.

Determinations must be approved by the head of the major organizational unit
ordering the support and must be attached to the agreement.

The DoD Deputy Chief Financial Officer issued a March 24, 2005, memorandum,
“Proper Use of Interagency Agreements for Non-Department of Defense
Contracts Under Authorities Other Than the Economy Act” (the DoD March 24,
2005, Memorandum). This memorandum, in conjunction with the DoD
October 29, 2004, Memorandum, establishes DoD policy on assisted acquisitions
to ensure that interagency agreements (under other than the Economy Act) for
non-DoD contracts are used in accordance with existing laws and DoD policy.
To save Government resources, the DoD March 24, 2005, Memorandum directs
the following actions.

       •   For services ordered through an interagency agreement, funds
           provided to the servicing agency that have expired must be
           deobligated and returned from the servicing agency unless the request
           for services was made during the period of availability of the funds;
           the order was specific, definite, and certain, with specificity similar to
           contractual orders; and severable services were ordered with a period
           of performance that does not exceed 1 year.

       •   For goods ordered through an interagency agreement, funds provided
           to the servicing agency that have expired must be deobligated and

                                      7
           returned from the servicing agency unless the request for goods was
           made during the period of availability of the funds and was for goods
           that, solely because of delivery, production lead time, or unforeseen
           delays, could not be delivered within the period of availability of those
           funds.

The Army, Navy, and Air Force issued supplemental guidance, “Proper Use of
Non-DoD Contracts.” The services implemented guidance and policy to comply
with the DoD October 29, 2004, Memorandum. The Army guidance was
approved on July 12, 2005, which was beyond the January 1, 2005, deadline. The
Air Force and Navy issued policy on December 6, 2004, and December 20, 2004,
respectively. All Military Department memorandums were effective on or after
January 1, 2005.

Subsequent to the DoD OIG fulfillment of the congressionally mandated
reporting deadline of March 15, 2006, the Under Secretary of Defense
(Comptroller) issued a memorandum on March 27, 2006, “Proper Use of
Interagency Agreements with Non-Department of Defense Entitities Under
Authorities Other Than the Economy Act” (the DoD March 27, 2006,
Memorandum). This memorandum contains guidance issued because of
violations of policies and existing regulations on non-DoD purchases. DoD
Components are to perform the following corrective actions and failure to
complete actions may result in revocation of authority to transfer funds to non-
DoD entities executing interagency agreements.

       •   Review all interagency agreements, close out all completed
           agreements, and coordinate with the outside entity to return all funds
           remaining on completed agreements no later than June 30, 2006.

       •   Funds provided to a servicing agency for services or goods where the
           funds are past their period of availability (“expired funds”) shall be
           deobligated no later than June 30, 2006.

       •   All future interagency agreement funding documents for severable
           services shall state that funds are available for services for a period not
           to exceed 1 year from the date of obligation and acceptance of this
           order.

       •   The interagency agreement will include the statement “I certify that
           the goods acquired under this agreement are legitimate, specific
           requirements representing a bona fide need of the fiscal year in which
           these funds are obligated.”

       •   Include a specific attestation on the triannual review certification that
           all existing interagency agreements are consistent with DoD policy.

       •   Provide a report on the amount reviewed and deobligated no later than
           July 15, 2006.

Competition. FAR Subparts 6.101(a) and (b), “Policy,” state that contracting
officers shall promote and provide full and open competition in soliciting offers

                                      8
and awarding Government contracts. Part (b) states that contracting officers shall
provide full and open competition through use of the competitive procedures that
are best suited to the circumstances of the contract actions.

FAR Subpart 16.505, “Ordering,” provides procedures for orders under multiple-
award contracts including regulations for fair opportunity and decision
documentation for orders.

        Fair Opportunity. DFARS Subpart 216.5, “Indefinite Delivery
Contracts,” requires that each purchase of products or services by or for DoD in
excess of $100,000 under a multiple-award contract shall provide all awardees a
fair opportunity to perform the statement of the work. DFARS also provides a
waiver from this requirement under certain circumstances. For orders exceeding
$2,500 and issued under multiple-delivery order or multiple-task order contracts,
the FAR requires the contracting officer to provide each awardee a fair
opportunity to be considered for award. The following are exceptions to the fair
opportunity process.

       •   The agency need for the supplies or services is so urgent that
           providing a fair opportunity would result in unacceptable delays.

       •   Only one awardee is capable of providing the supplies or services
           required at the level of quality required because the supplies or
           services ordered are unique or highly specialized.

       •   The order must be issued on a sole-source basis in the interest of
           economy and efficiency as a logical follow-on to an order already
           issued under the contract, provided that all awardees were given a fair
           opportunity to be considered for the original order.

       •   It is necessary to place an order to satisfy a minimum guarantee.

Price Reasonableness Determination. FAR Subpart 12.209, “Determination of
Price Reasonableness,” states that contracting officers must determine price
reasonableness and FAR Subpart 13.106-3, “Award and Documentation,” states
that contracting officers must determine that the proposed price is fair and
reasonable. In addition, the contracting officer is responsible for documenting the
price reasonableness determination in the price negotiation memorandum.

Surveillance Requirements. FAR Subpart 46.103, “Contracting Officer
Responsibilities,” provides that contracting offices are responsible for receiving a
QASP from the requesting activity when contracting for services. FAR Subpart
46.103 states:
        Contracting offices are responsible for receiving from the activity
       responsible for technical requirements any specifications for
       inspection, testing, and other contract quality requirements essential to
       ensure the integrity of the supplies or services (the activity responsible
       for technical requirements is responsible for prescribing contract
       quality requirements, such as inspection and testing requirements or,
       for service contracts, a quality assurance surveillance plan).

                                           9
    FAR Subpart 37.6, “Performance-Based Acquisition,” prescribes the QASP
    requirements for performance-based services contracts. The FAR requires
    agencies to develop QASPs when acquiring services that contain measurable
    inspection and acceptance criteria corresponding to the performance standards
    contained in the statement of work.

Funding Criteria
    Bona Fide Needs Rule. The bona fide needs rule is codified in
    31 U.S.C. 1502(a). A fiscal year appropriation may be obligated only to meet a
    legitimate, or bona fide, need arising in, or in some cases arising prior to, but
    continuing to exist in the fiscal year for which the appropriation was made.
           The balance of an appropriation or fund limited for obligation to a
           definite period is available only for payment of expenses properly
           incurred during the period of availability or to complete contracts
           properly made within that period of availability and obligated
           consistent with section 1501 of this title. However, the appropriation
           or fund is not available for expenditure for a period beyond the period
           otherwise authorized by law.

    Purpose Statute. The purpose statute codified in 31 U.S.C. 1301(a) states that
    appropriations shall be applied only to the objects for which the appropriations
    were made except as otherwise provided by law. The implementation of this
    statute requires that an appropriation be used only for its intended purpose. The
    statute prohibits charging funds to the wrong appropriation.

    Antideficiency Act. The Antideficiency Act (ADA) is codified in a number of
    sections of title 31 of the United States Code. The purpose of these statutory
    provisions, known collectively as the ADA, is to enforce the constitutional
    budgetary powers entrusted to Congress with respect to the purpose, time, and
    amount of expenditures made by the Federal Government. Violations of other
    laws may trigger violations of ADA provisions (for example, the “bona fide needs
    rule,” 31 U.S.C. 1502[a]).

    DoD Financial Management Regulation Guidance. The DoD Appropriation
    Act of FY 2005 defines the use of each appropriation and sets specific timelines
    for use of the appropriations. However, the DoD Financial Management
    Regulation (FMR), volume 2A, chapter 1, provides guidelines on most commonly
    used DoD appropriations for determining the correct appropriation to use when
    planning acquisitions.

            Expenses and Investments. All costs are classified as either an expense
    or an investment. Expenses are costs of resources consumed in operating and
    maintaining the DoD and typically have an approved threshold limit of $250,000
    for expense and investment determinations. Investments are costs to acquire
    capital assets, such as real property and equipment, and have a cost higher than
    the currently approved dollar threshold of $250,000 for expense and investment
    determinations. Costs budgeted in the Operation and Maintenance (O&M)
    appropriations are considered expenses. Costs budgeted in the Procurement

                                             10
    appropriations are considered investments. Costs budgeted in the Research,
    Development, Test, and Evaluation (RDT&E) appropriations include both
    expenses and investments.

            O&M Appropriations. Expenses incurred in continuing operations and
    current services are budgeted in the O&M appropriations. Modernization costs
    under $250,000 are considered expenses, as are one-time projects, such as
    development of planning documents and studies. O&M funds are available for
    obligation for 1 year.

            RDT&E Appropriations. Research, development, test, and evaluation
    requirements, including designing prototypes and processes, should be budgeted
    in the RDT&E appropriations. In general, all developmental activities included in
    bringing a program to its objective system are to be budgeted in RDT&E.
    RDT&E funds are available for obligation for 2 years.

           Minor Construction. FMR volume 2B, chapter 6 states that an
    unspecified military construction (MILCON) project not costing more than
    $750,000 may be funded from appropriations available for operations and
    maintenance. Minor construction projects costing more than $750,000 may not
    be performed unless 10 U.S.C. 2805 requirements are met.

    Antideficiency Act Violations. FMR volume 14, chapter 3 states that the
    DoD IG may advise in a report that a potential violation may have occurred.
    Generally, the audit report will include a recommendation to investigate the
    potential violation. Within 10 business days of receipt of a draft report alleging a
    potential violation, the OUSD(C)/CFO, the Assistant Secretary for Financial
    Management of a Military Department, or the Comptroller of a Defense agency or
    DoD Field Activity, as applicable, shall request that a preliminary review of the
    potential Antideficiency Act violation be initiated within the next 30 days. The
    DoD Component shall supply the status of the preliminary review or formal
    investigation as requested by the applicable organization. Generally, the
    existence of a potential violation shall be established during the preliminary
    review and before a formal investigation begins. The purpose of the formal
    investigation is to determine the relevant facts and circumstances concerning the
    potential violation and whether the violation occurred, what caused it, what are
    the appropriate corrective actions and lessons learned, and who has responsibility
    for the violation.

DoD Planning
    DoD auditors visited 10 DoD organizations that sent funds to the Department of
    the Treasury using MIPRs for the purchases of goods and services. We found that
    the organizations did not perform market research to determine the most efficient
    and economical way to fulfill the requirement, enter into detailed interagency
    agreements with FedSource, evaluate price reasonableness, or emphasize
    competition and surveillance.

    Acquisition Planning. Of the 61 task orders reviewed, none contained
    documentation that alternative methods were considered to satisfy the

                                        11
requirements. DoD organizations should have documented their decisions to
contract through a non-DoD activity such as FedSource during the acquisition
planning phase. FAR Subpart 7.102(b) requires agencies to perform acquisition
planning and conduct market research for all acquisitions to ensure the
Government meets its needs in the most effective, economical, and timely
manner. Assisted acquisitions such as those done by FedSource usually include a
two to six percent surcharge that must be considered in deciding whether the
acquisition should be performed by a DoD activity or by a non-DoD contracting
office.

        Market Research. None of the 61 task orders reviewed had
documentation that market research was performed. Market research is defined
as collecting and analyzing information about capabilities within the market to
satisfy agency needs. Personnel who formulate requirements at DoD activities
consistently failed to perform market research on purchases through FedSource.
FAR Part 10 requires that agencies use the results of market research to determine
sources capable of satisfying the agency’s requirements. The DoD October 29,
2004, Memorandum requires the Military Departments and Defense agencies to
evaluate whether using a non-DoD contract for the procurement of supplies and
services is in the best interest of DoD. Factors considered are ability to satisfy
requirements, schedule, cost effectiveness (taking into account discounts and
fees), and contract administration that includes oversight. DoD program officials
confirmed that they did not seek other acquisition alternatives because of
concerns with DoD contracting office timely fulfilling orders within the fiscal
year of the funds. Numerous DoD activities did not document the contracting
alternatives available before using assisted acquisitions. Potential savings can be
realized by contracting within DoD versus procuring through non-DoD activities
and incurring fees by the non-DoD activity when the requirement is placed on
contract and, in some instances, additional fees when the initial non-DoD activity
requests another non-DoD activity to make the award for it. DoD activities need
to document their rationale and basis for the procurement method used.

Military Interdepartmental Purchase Requests. DoD activities used MIPRs as
the primary document to order goods or services from other DoD Components, as
well as other Government agencies. MIPRs are prepared on a DD Form 448,
Military Interdepartmental Purchase Requests. The ordering organization
completing the MIPR should include a description of the supplies or services
requested, unit price, total price, period of performance, and fund cite. The
MIPRs can be accepted as either a reimbursable or direct cite; DoD MIPRs were
accepted as reimbursable by FedSource. For a reimbursable order, the ordering
organization should record an obligation at the time of acceptance. A MIPR
description that is definite, certain, and specific is essential to support the bona
fide need of the procurement. Funds should not be obligated without a detailed
description that allows for a complete understanding of the use of the funds. A
statement of work should be provided with the MIPR or, at a minimum,
referenced on the MIPR to ensure the basis for the purchase is supported by a
specific requirement. Additionally, the period of performance on the MIPR for
services provides a time frame that the task is required. During FY 2005, DoD
sent 9,199 MIPRs for orders to FedSource with a total value of about
$405.1 million.


                                     12
        MIPR Description. We reviewed 61 task orders that comprised 110
MIPRs valued at approximately $37.3 million. Of the 110 MIPRs reviewed, 25
lacked a specific detailed description of the requirement. For example, Walter
Reed Medical Center submitted 3 MIPRS consisting of MIPR5AWRA20051 for
$706,300 dated September 20, 2005; MIPR5AWRA2005 for $4,878 dated
October 17, 2005; and 5AWRA2006 for $1.08 million dated September 23, 2005,
to the FedSource Center in Baltimore to acquire the services for 350 contracted
positions. The Walter Reed Medical Center MIPRs contained a broad description
of the services and were not specific as required by 31 U.S.C. 1501. Further, the
MIPRs omitted any reference to the statement of work containing the scope of
work and what specific work was required.

In another example, U.S. Army Human Resources Command forwarded seven
MIPRs valued at $6.0 million to fund four task orders processed by the FedSource
St. Louis Center. Two MIPRs cited FY 2004 O&M Funds and five cited FY 2005
O&M funds. The MIPRs were used to acquire the services of administrative
personnel to clear up a backlog, perform data input, and file veterans military
records into a permanent archive. Project Falling Timber was listed on the MIPR
description but no further detail was provided. From the information on the
MIPR, almost any work remotely relating to the project could have qualified. The
vague description did not provide a clear and complete understanding on the use
of the MIPR funds. Further, the MIPRs omitted any reference to the statement of
work containing the purpose and detailed requirements. The MIPR did not
present a specific, definite, and certain description of the requirement.

        Period of Performance. DoD activities did not consistently include the
period of performance on the MIPRs, as required by DFARS. DFARS 253.208-1
requires that delivery schedule data be included in the MIPR. The requiring
department must clearly state the required time of delivery or performance on
each MIPR, and ensure the normal administrative lead time for goods is
considered. In addition, the delivery and performance schedules on MIPRs must
be realistic. We identified 27 of 110 MIPRs that did not provide a period of
performance on the MIPR.

Interagency Agreements. For the DoD activities visited, 51 of 61 task orders
(valued at $34.6 million) were issued without an interagency agreement or with
an agreement that was inadequate. The agreements did not identify the
responsible management officials overseeing the procurement and financial
management for the task order. Further, the agreements omitted the billing and
disbursement process details and plans for post-award audits as required by DoD
Instruction 4000.19, “Interservice and Intergovernmental Support,” August 19,
1995. The DoD March 24, 2005, Memorandum prescribes that all interagency
agreements shall be reviewed to determine whether they are complete. The Under
Secretary of Defense (Comptroller) issued a September 25, 2003, memorandum,
“Fiscal Principals and Interagency Agreements,” which requires every order
under an interagency agreement to be based upon a legitimate, specific, and
adequately documented requirement representing a bona fide need in the year in
which the order is made. DoD activities that lacked an interagency agreement for
the task order purchase relied upon a MIPR to support the procurement, but many
contained insufficient detailed descriptions of goods or services to be acquired.


                                   13
     An interagency agreement completed in accordance with DoD Instruction
    4000.19 will assist all parties in ensuring that the procurement is executed
    smoothly.


Competition
    Contracting officers are to provide for full and open competition through the use
    of competitive procedures in order to fulfill the Government’s requirement
    efficiently. Of the 61 purchases reviewed, 41 were awarded either without
    adequate competition or without any competition. FedSource contracting officers
    did not consistently provide fair opportunity for task orders issued against
    multiple-award contracts and issued awards based on customer-preferred sources.
    The FedSource multiple-award contracts were not utilized to their fullest extent to
    optimize competition because FedSource acquisition centers were not permitted
    to seek proposals from all multiple-award contracts. Competition was restricted.
    Although FedSource made improvements to increase competition, it did not
    provide fair opportunity on purchases deemed to be “routine buys.” Further
    improvements to the FedSource contracting procedures on routine buys should
    continue to improve its ability to ensure full and open competition.

            Fair Opportunity. DFARS Subpart 216.5, “Indefinite-Delivery
    Contracts,” implements Section 803 of the National Defense Authorization Act
    for FY 2002 that requires each procurement for products and services for DoD in
    excess of $100,000 under a multiple-award contract to be made on a competitive
    basis (unless a contracting officer provides a justification for determination or the
    requirement is waived). The term “competitive basis,” with respect to multiple-
    award contracts, means procedures require fair notice to be provided to all
    contractors offering such products or services and to afford contractors a fair
    opportunity to make an offer and have that offer fully and fairly considered by the
    official making the procurement. FAR Subpart 16.505, “Ordering,” directs
    contracting officers to provide awardees fair opportunity to be considered for
    orders exceeding $2,500 under multiple-delivery or task order contracts. The
    FAR also requires contracting officers to document the rationale for contract
    award selection and price determination for each task order issued under a
    multiple-award contract. Treasury task order contracts for DoD lacked fair
    opportunity because of improper contracting practices, automatic award of routine
    buys to the same contractor on an annual basis, and fulfillment of DoD-preferred
    sources to accomplish the requirement.

    FedSource, Los Angeles awarded task order LOS0008119 valued at $738,013 to
    renovate Building 453 at Fort McCoy Army Base. The building renovation was
    not adequately competed since FedSource selected a contractor that marketed his
    business to FedSource. A FedSource post-award conference memorandum dated
    May 15, 2002, showed that business generated and brought to FedSource by a
    particular vendor would be awarded the work. The determination and finding
    indicated that Adecco Technical Company was entitled to the contract award
    since it recruited the business and brought it to FedSource. In addition, the
    determination and finding stated that award was based on fair consideration and
    best value. Adecco was awarded the contract, but there was no evidence of other

                                         14
contractor proposals. The multiple-award contract provided for three contractors
to compete under TPD-02-C-0020 through TPD-02-C-0022 but its use was
negated. FedSource terminated this contracting practice on July 12, 2004, and
orders related to construction currently go through FedSource, Los Angeles and
the Administrative Resource Center. Fair opportunity and best value did not
occur; we commend FedSource for correcting this contracting problem.

        Routine and Complex Determination. Prior to contract award,
FedSource made a determination on whether the requirement was routine or
complex. Routine work was awarded to the multiple-award contractor generally
having the lowest markup. Fair opportunity or consideration was not given to
other multiple-award contractors who might have offered promotional pricing.
Routine task orders were for work that was being performed without special
recruitment, retention, management, or other technical factors. If not routine, a
purchase was categorized as complex, which was a technical purchase that
required a proposal for evaluation. In FY 2005, FedSource issued 2,201 routine
buys from 2 multiple-award contracts, 2 single-award contracts and 7 BPAs.
Routine buys were required to consider competitive contractor prices annually at
the time an option can be exercised; however, this was not done. Instead, routine
buys were awarded based primarily on markup and overhead rate differences
among the multiple-award contractors. For most routine task orders the labor
rates and the labor hours were provided to the contractors. Accordingly, the only
variable was the markup and overhead rates. For routine purchases the vendor
with the lowest markup and overhead rate when the contracts were awarded
received the task order award. This process gave no consideration to promotions
or reductions in price that the different contractors may have offered. For
example, task order STL001272, valued at $74,405, was awarded for a Word
Processor Team Lead I under project Falling Timber at the U.S. Army Human
Resources Command. The purchase, a routine buy, was awarded to the
contractor, Kelly Services, Inc., based on having the lowest markup. Under the
multiple-award contract consisting of five vendors, Kelly had the lowest markup
and, therefore, could receive all awards. Competition was inhibited by relying on
the markup as the main determining factor for award. FedSource officials stated
they plan to compete routine buys in the future based on our discussion and will
require complete contracting pricing for routine buys to improve the ability to
meet competition requirements.

Blanket Purchase Agreements Not Competed. A BPA is a simple method of
filling anticipated repetitive needs for supplies or services with qualified sources.
BPAs are established when there is a broad class of supplies or services that are
routinely purchased, but the exact items, quantities, and delivery requirements are
not known in advance and may vary considerably. FedSource uses 11 BPAs
primarily for services. The FAR requires contracting officers to solicit offers
from as many potential sources as is practicable when not providing for full and
open competition. Contracting officers are required to promote competition to the
maximum extent possible to obtain supplies and services from whatever offer is
the most advantageous to the Government, considering the administrative cost of
the purchase. BPAs limit competition, but some competition can be achieved if
fair opportunity is given to all BPA contractors within a group. Better contract
vehicles are available to increase competition and ensure best value. FedSource
personnel indicated that they do not plan to reissue BPAs that are expiring, but

                                     15
the same contractors and personnel were selected in subsequent contract vehicles
to continue work. Although we commend FedSource for minimizing use of BPAs
in the future because they limit competition, action is needed to preclude awards
of future task order contract awards to preferred sources from expiring BPAs.

        Preferred Sources. DoD agencies occasionally requested specific
individuals to fulfill DoD customer requirements and FedSource awarded task
order contracts to the requested contractor. As an example, FedSource issued task
order 11504 on behalf of the Naval Facilities and Engineering Command
(NAVFAC) to TKC Communications Company, on October 18, 2005, for
$52,140 for administrative support services. The services were initially awarded
on BPA 4002 to Breil Worldwide Company, on September 30, 2004. The request
for proposal for administrative services required in FY 2005 stated the preferred
subcontractor under TKC Communications Company will be Briel Worldwide. A
preferred source that worked for Briel Worldwide under BPA 4002 was
specifically named to fulfill task order 119504 in a NAVFAC e-mail to
FedSource, a customer quote, and an e-mail from the FedSource Contracting
Officer Technical Representative (COTR) to NAVFAC on September 8, 2005.
The price negotiation memorandum lacked coverage on the contract negotiation
but should have reported the contract award process undertaken. The series of
actions clearly demonstrates that NAVFAC wanted and obtained a specific
individual to fulfill administrative services. DoD preferred sources limit
competition and the ability to obtain best value for services acquired.

 Multiple-Award Contracts. FedSource Centers were limited to using certain
multiple-award contracts to fulfill customer orders instead of vetting customer
requirements among all available FedSource multiple-award contracts. The
Department of the Treasury Administrative Resources Center, established seven
multiple-award contracts for FedSource to award task order contracts to fulfill
customer requirements. The ARC establishes multiple-award contracts, single-
award contracts, and small business contracts, and FedSource prepares or initiates
the task order contracts issued off these overarching contracts. The FedSource St.
Louis Center primarily used multiple-award contracts TPD-03-C-0001 through
TPD-03-C-0005 with a maximum contract value of $700 million, consisting of
five contractors that provide support services. FedSource, St. Louis was generally
not permitted to use multiple-award contracts TPD-04-C-0013 through TPD-04-C-
0021, with a maximum contract value of $600 million consisting of nine
contractors that also provide operational support services. This multiple-award
contract was designated for the FedSource San Antonio Center and was not
available to the FedSource St. Louis Center. Likewise, the multiple-award
contract used by St. Louis was not used by the San Antonio Center even though all
contractors provided the same category of services. Additional opportunity to
increase competition and obtain best value is limited by the FedSource restrictive
use of the multiple-award contracts. FAR requires contracting officers to promote
full and open competition in soliciting offers and awarding Government contracts.
Opening the multiple-award contracts to all FedSource acquisitions of products
and services will provide a larger universe of contractors that might be interested
in the work.

        Contract Options Underutilized. FedSource issued modifications to
task order contracts to add additional funds and extend the period of performance

                                     16
    beyond 12 months for a severable service versus exercising contract options.
    FedSource did not issue contract options on an annual basis although task orders
    included provisions to exercise options. The Joint Personnel Recovery Agency
    (JPRA) extended task order number 1916, issued October 26, 2004, beyond 1
    year to February 28, 2006, without exercising an option contract. JPRA should
    consider exercising an option contract on an annual basis to allow consideration
    of other sources to ensure best value is obtained. The use of options would
    provide some assurance that the current contract situation is still the best value for
    the Government. Further, the exercise of an option on an annual basis assists in
    ensuring that the proper year of funds is applied for the proper performance
    period. Otherwise, funds incrementally added under contract modifications can
    result in appropriated funds being used beyond 12 months for a severable service
    task order contract or used to perform work in the wrong fiscal year.

Price Reasonableness
    According to FAR Subpart 15.403, “Obtaining Cost or Pricing Data,” contracting
    officers are responsible for obtaining adequate information to evaluate price
    reasonableness. Of the 61 purchases reviewed, 52 were valued at $36.3 million
    and did not have adequate evidence of price reasonableness. Contracting officers
    are required, at a minimum, to document price reasonableness for pricing supplies
    and services. We identified 40 purchases that did not include price negotiation
    memorandums documenting price reasonableness. Independent Government Cost
    Estimates (IGCE) were not developed or adequate on 54 task orders reviewed.
    Salary.com, GSA Advantage, and wage determination rates were used as primary
    price reasonableness determining factors on several task orders, but these alone
    are insufficient to support fair and reasonable pricing.

    Price Negotiation Memorandums. The price negotiation memorandum should
    provide support for pricing on the task order; however, FedSource did not
    regularly include price comparisons with other contractors, historical data, or
    consideration of contractdirectory.gov as other sources to support price
    reasonableness determinations. For example, FedSource issued task order
    STL001972 against BPA 8530, for $51,514, on December 15, 2004, for the JPRA
    to fulfill the purchase for an Analyst III to review and test communication
    systems. The contract file did not contain a price negotiation memorandum, price
    comparisons, historical cost data, or a summary of the contractor’s proposal and
    basis for profit and fee. Also, no IGCE was available to support pricing and no
    price comparison was considered against another BPA available for price
    comparison.

    Task orders we reviewed that were issued by FedSource, Beaufort had no price
    negotiation memorandums in contract files. For example, FedSource awarded
    task order STL002275, for $428,400, for the Headquarters of the U.S. Air Force,
    Manpower and Personnel Youth Fitness Marketing project. The task order was
    awarded under BPA 1804 to Professional Services Unlimited, Inc. The contract
    file did not contain a price negotiation memorandum to support the basis for fair
    and reasonable pricing. FedSource officials acknowledged that incomplete
    contract file records occurred at FedSource, Beaufort and FedSource terminated
    the contracting function at Beaufort. In addition, FedSource has since

                                         17
     implemented improvements to improve contract file maintenance FedSource-
     wide. Currently, FedSource requires a task order contract file to contain a
     checklist of required data, which includes a price negotiation memorandum and
     IGCE to support price reasonableness. See “FedSource Initiatives” on page 19 of
     the GAO report, “Interagency Contracting-Franchise Funds Provide Convenience,
     but Value to DoD is Not Demonstrated,” for action taken by FedSource.

     Independent Government Cost Estimate. When performing price analysis to
     determine fair and reasonable price, an IGCE should be used. Of the 61 task
     orders reviewed, 54 task orders valued at approximately $36.9 million, had
     IGCEs that were inadequate or not available. For example, the contracting officer
     for the Office of the Under Secretary of Defense for Personnel and Readiness task
     order LOS014553, valued at $14 million, did not document how a fair and
     reasonable price was determined. The contract file did not include an IGCE or
     price negotiation memorandum to document historical cost data or current cost
     comparisons on similar items.

     FedSource Pricing Factors. Salary.com, GSA Advantage, and wage
     determination rates were used by FedSource for determining price
     reasonableness. Salary.com is an Internet industry source for labor rates upon
     which FedSource relied to support that task orders were priced fairly and
     reasonably. Salary.com alone is not sufficient to support price reasonableness but
     was used regularly to serve as cost estimate comparison. For example, FedSource
     issued task order BAL 015420 on behalf of Walter Reed Army Medical
     Command for $57,946 for a Medical Supply Technician. The IGCE relied solely
     on Salary.com. FAR Part 15.404-1(b), “Price Analysis,” states that when
     performing price analysis to determine a fair and reasonable price, the contractor
     should compare proposed prices received in response to the solicitation, and
     compare previously proposed Government contracts with commercial prices,
     competitive published price lists, IGCEs, and prices obtained through market
     research. Wage determination documents were in the contract file but the price
     negotiation memorandum did not include how they were used for pricing.


Contractor Surveillance
     Surveillance is vital to ensure successful contractor performance. Contract
     surveillance should start at the beginning of the contract and continue through the
     length of the contract to ensure the contractor performs all required services.
     FAR Subpart 46.4, “Government Contract Quality Assurance,” prescribes that a
     QASP should be prepared in conjunction with preparation of the statement of
     work and should specify all work requiring surveillance and the method of
     surveillance. DoD officials prepared statements of work citing deliverables that
     were broad and general and not conducive to aiding surveillance. FedSource did
     not regularly use the QASP to measure and monitor task order contract
     performance. A QASP is useful to clarify what is expected from the contractor
     and reduce the confusion that exists in interagency contracting arrangements.

     Incomplete Surveillance Plan. For 61 task order contracts, 58 QASPs were
     incomplete or unavailable. The QASP was incomplete because of either a lack of

                                         18
    approval signatures or no measurable criteria established to measure performance.
    The QASP is needed to clearly identify roles and responsibilities for the
    contractor and DoD and FedSource officials. The QASP should also contain
    clear, discrete performance metrics for measuring progress. DoD requiring
    officials were unable to identify specific COTR surveillance steps performed. For
    the most part, the QASPs included in the task orders reviewed were merely a list
    of deliverable items. Several DoD program managers stated that they relied
    solely on FedSource to oversee contract surveillance or did not rely on them at
    all. For example, Naval Facilities Engineering Command task order BAL119500
    for archeological conservation and preservation of historical sites included an
    incomplete QASP. The QASP lacked a FedSource COTR approval signature,
    specific and measurable deliverables, and no schedule for reviews. In some
    instances, surveillance was conducted on an exception basis for task orders. In
    these cases, FedSource would not actively monitor the task order unless a
    problem arose and was reported by a DoD activity. DoD could not be assured it
    was receiving the best quality items or services without an approved and complete
    QASP. In addition, DoD may have accepted substandard goods on delivery by
    paying for services and items not received, or may have gotten substandard
    performance from the contractor.

    Contracting Officer Technical Representative. FedSource officials stated that
    they assigned COTRs for each of the task order contracts reviewed via COTR
    designation letters maintained in the multiple-award, single-award, or Small
    Business Administration contracts. Although we found this to be the case,
    designated COTRs were responsible for numerous contracts. Also, there was a
    five- to seven-page list of surveillance duties to be performed on each contract.
    We felt that it was unrealistic to expect one person to complete the long list of
    assigned tasks. In addition, the COTRs were unable to accurately state when the
    surveillance duties were last accomplished or provide any support for the duties
    listed in the designation letters.

    Although FedSource maintains COTR letters, the list of responsibilities were not
    tailored to meet the specific level of effort required for surveillance on an
    individual purchase. For example, FedSource issued task order STL00115 to
    purchase word processor services on behalf of the U.S. Army Human Resources
    Command. The COTR was designated on the multiple-award contract number
    TPD-03-C-0003. However, FedSource did not tailor the COTR responsibilities to
    the task order or designate measurable performance goals. The COTR did not
    document evaluation results on the task order performance and a replacement
    COTR was not designated in the QASP when the original COTR departed the
    command.

Use of Government Funds
    We reviewed 61 task order contracts valued at about $37.8 million, representing
    approximately 10 percent of the total value of task orders issued by FedSource in
    FY 2005. The 61 task orders reviewed comprised 57 purchases funded using
    O&M funds and 4 purchases funded with RDT&E funds. DoD activities are
    responsible for designating the correct type of appropriation and year of funds for
    each purchase on a MIPR or interagency agreement for non-DoD procurements.

                                        19
Preliminary acquisition planning involving a qualified contracting officer and
early communication with FedSource can prevent the improper use of
Government funds, prevent future potential Antideficiency Act violations, and
prevent the loss of DoD funds. This will ensure that DoD purchases made
through FedSource and other non-DoD activities are in the best interest of DoD
and that DoD receives the best value acquisitions.

Use of Government Funds. The wrong type of appropriations occurred in
purchases whereby O&M appropriated funds or RDT&E appropriated funds were
not applied correctly for the work performed. Also, the use of the wrong
appropriation can occur when purchases funded by O&M exceed certain dollar
thresholds. Bona fide need problems resulted when goods and services were
purchased for a need unrelated to the period of time the appropriation was
available for use. The GAO Appropriations Law, volume I, chapter 5,
“Availability of Appropriation: Time,” provides that annual appropriations are
available to meet bona fide needs of the fiscal year for which they were
appropriated. A common application of the rule is that an appropriation is not
available for needs of a future year.

       Wrong Appropriations. Nine of 61 purchases used the wrong type of
appropriation to fund the procurements. We identified purchases where DoD
designated RDT&E funds versus O&M, or O&M versus the MILCON
appropriation or splitting projects to avoid exceeding O&M monetary limits to
use MILCON funds.

        As an example, Fort McCoy Director of Support Services sent two MIPRs
valued at $786,745 to FedSource, Los Angeles for renovation of Building 453 on
task order LOS008119. The renovation of Building 453 was planned to change
its function from being a barracks to being a visitor officer quarter at Fort McCoy
Army Base. Building 453 was reconfigured and improvements made that
supported new construction, with improvements including new bathrooms,
fixtures, counters, tubs, and closets. A facilities engineering work request
established on September 17, 2003, provided that Building 453 will include
individual rooms with private baths; however, this represents new improvement
and additional components not in the original building configuration. Army
Pamphlet 420-11, dated October 7, 1994, “Project Definition and Work
Classification,” provides that a repair will cover facility restoration to a condition
that fulfills its designated purpose. Repairs are not to cover major upgrades.
Army Regulation 420-10, “Management of Installation Directorates of Public
Works,” dated April 15, 1997, provides that additional quantities beyond what
existed is construction. Army Regulation 415-15, “Army Military Construction
Program Development and Execution,” Section 2-3, dated September 9, 1998,
states that functional conversions must be done as construction. The
improvements required to change the barracks to a visitor officer quarters results
in construction versus repair. Fort McCoy management believed that the building
was solely for repair and was not limited to the $750,000 threshold established for
minor construction. Defense Support Services personnel at Fort McCoy
exceeded the minor construction $750,000 dollar threshold by sending
MIPR3MDFE00085 on September 24, 2003, for $784,252, and an amendment for
$2,493 on July 12, 2004, to FedSource. The total cost of $786,745 used
O&M funds. Although the task order contract was awarded by FedSource on

                                     20
July 22, 2004, for $735,214, the amount did not include the FedSource fee. The
entire $786,745 was billed for Building 453 renovation. The planning for both
buildings was in 2003. The request for MILCON funds should have occurred in
2003 also. Therefore, Defense Support Services at Fort McCoy used an incorrect
appropriation.

        In another example, the JPRA acquired administrative services from
FedSource. Both RDT&E and O&M funds were used to fund the services, under
task order contract STL001373. FedSource initially issued the task order
contract, STL001373, on June 7, 2004, for $33,972, to obtain a management
assistant to support the Joint Experimentation and Interoperability Directorate
within JPRA. The statement of work for the task order specified that a
management assistant should be contracted to perform administrative and
technical support, provide graphics and illustration support, maintain project
plans and assessment schedules, and provide document and conduct file
management support. These tasks should be funded with O&M funds. The JPRA
issued four MIPRs to FedSource to fund this purchase, of which three MIPRs
cited RDT&E funds and one cited O&M funds. The first RDT&E MIPR is
NMIPR049208779 for $117,000, issued on June 3, 2004. The addition of MIPR
NMIPR049208779 Amendment 1 totals $392,798, of which $79,017 in RDT&E
funds was allocated to STL001373. MIPR F1AF214294G001 for $192,000 was
issued on March 11, 2005, of which $46,937 in RDT&E funds was allocated to
the task order. The total of $127,407 allocated from the three MIPRs designated
with RDT&E appropriated funds should have used O&M funds, not RDT&E
funds. O&M funds should have been used to fund the entire task order contract.
Therefore, JPRA used an incorrect appropriation.

       Bona Fide Need. We identified 16 of 61 purchases that did not meet the
bona fide needs rule. For example, March Air Reserve Base, 452nd Civil
Engineers forwarded MIPR NG466443040031 dated September 30, 2004, for
approximately $3.0 million to FedSource, Los Angeles on task order LOS014181.
The MIPR funds were to provide repair services on a runway and taxiway with a
period of performance from December 1, 2004, to November 30, 2005.
FedSource accepted the MIPR on September 30, 2004. MIPR NG466443040031,
amendment 1 was used to deobligate approximately $1.5 million, thereby leaving
approximately $1.5 million to complete the taxiway repairs. FedSource,
Los Angeles did not award a contract until April 4, 2005, or 6 months after MIPR
acceptance. This use of FY 2004 funds to meet a FY 2005 requirement does not
show a bona fide need for the repair or services in FY 2004. A potential
Antideficiency Act violation exists.

       In another example, Headquarters Air Force Installation and Logistics
Services forwarded MIPR NMIPR049209876 for $1.9 million on September 22,
2004, to FedSource, St. Louis for a Public Awareness Campaign and Family
Child Care conference on task order STL002274. FedSource, St. Louis awarded
the contract with a period of performance from September 22, 2004, through
September 23, 2005. The Air Force MIPR cited FY 2004 O&M funds. However,
the 2005 Family Child Care conference to support families of deployed Air
National Guard and Air Force Reserve members was scheduled for July 25–27,
2005. The FY 2004 O&M funds expired on September 30, 2004, and should not
have been used for services performed in FY 2005. In addition, modification

                                   21
    number 3 was issued to extend the contract period beyond 12 months from the
    date of contract award to January 6, 2006. This was at no increased cost to the
    Government; however, existing FY 2004 funds may have been used to fulfill
    work performed during the extended period. The use of FY 2004 funds to fulfill a
    FY 2005 requirement violates the bona fide needs rule. A potential
    Antideficiency Act violation exists.

           See Appendix D for a complete description of each of the 21 potential
    Antideficiency Act violations.

    Audit Fund Tracking. DoD did not consistently track funds sent to FedSource
    by MIPRs and interagency agreements. No central database within DoD exists to
    track MIPR funds. Each DoD activity utilized its own system or service standard
    accounting system to track the unliquidated obligation balances, but the MIPR
    funds could not be tied to the task order contract actions. Difficulty exists in
    tracking MIPR funds because the funds may be used to support multiple projects.
    DoD activities relied on FedSource for task order contract financial obligation
    and expenditure reporting. FedSource utilizes a database known as the Business
    Management System (BMS), brought online in October 2004, to standardize its
    fund and cost tracking across all the FedSource centers. Prior to its
    implementation, each FedSource Center maintained its own system for task order
    fund tracking and therefore, was more fragmented and decentralized. The BMS
    provided capability to report funds remaining at FedSource beyond their period of
    availability. FedSource BMS task order contract fund reporting is available on
    the DoD funds remaining at FedSource beyond their period of availability. The
    FedSource BMS identified that DoD is able to recoup $19.6 million in expired
    funds that were sent to FedSource from FY 2002 through FY 2005. Increased
    DoD vigilance to follow up on the unliquidated obligated fund balance can ensure
    funds are used for other purposes prior to their expiration.

Conclusion
    DoD officials must perform acquisition planning and establish interagency
    agreements with FedSource before purchasing goods and services. Based on the
    task orders examined, the audit identified numerous problems related to lack of
    market research, scant support of price reasonableness, inadequate competition,
    and absence of contract surveillance. Further, 21 potential Antideficiency Act
    violations were identified for preliminary investigation by the applicable DoD
    Components.


Management Comments on the Finding and Audit Response
    Office of the Under Secretary of Defense for Acquisition, Technology, and
    Logistics Comments. The Director, Defense Procurement and Acquisition
    Policy, Office of the Under Secretary of Defense for Acquisition, Technology,
    and Logistics provided comments. The Director concurred with the report and is
    working closely with the Department of Treasury to ensure that interagency


                                       22
    acquisitions conducted on behalf of DoD by the Department of the Treasury are
    proper and comply with statute, policy, and regulation.

    Treasury Franchise Fund Comments. The Director of the Treasury Franchise
    Fund provided comments; the Director generally concurred with the report and is
    working with DoD to ensure the audit recommendations are implemented. The
    Treasury Franchise Fund Director agreed with the findings on areas of DoD
    Planning, Competition, Price Reasonableness, Contractor Surveillance, and Use
    of Government Funds. The Treasury Franchise Fund Director nonconcurred on
    multiple-award contracts issue areas. The Director said that the Administrative
    Resource Center awarded multiple-award contracts from a single solicitation;
    however, other offices, not known as FedSource at the time, also awarded
    multiple-award contracts. The Treasury Franchise Fund Director stated a single
    solicitation was awarded on a competitive basis when a notice was provided to all
    awardees under the multiple-award contracts.

    Audit Response. The Treasury Franchise Fund Director generally concurred and
    is currently working with DoD to ensure the audit recommendations are
    implemented to further strengthen the acquisition process and make certain the
    processes will be deemed compliant. The Treasury Franchise Fund Director
    nonconcurred regarding FedSource Centers limits to using certain multiple-award
    contracts to fulfill customer orders instead of vetting customer requirements
    among all available FedSource multiple-award contracts. However, the Treasury
    Franchise Fund Director stated FedSource has undergone a re-organization and
    contracts are being established that will be utilized by all FedSource offices.

Recommendations and Management Comments
    We are not making recommendations to the Under Secretary of Defense for
    Acquisition, Technology, and Logistics regarding the various acquisitions and
    contracting issues because such recommendations are included in our report D-
    2007-007 dated October 30, 2006, “FY 2005 DoD Purchases Made Through the
    General Services Administration.” Also, no recommendations are in the report to
    the Under Secretary of Defense (Comptroller)/Chief Financial Officer regarding
    the potential Antideficiency Act violations because the recommendations are
    addressed in our report “Potential Antideficiency Act Violations on DoD
    Purchases Made Through Non-DoD Agencies,” due out in FY 2007.

    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

          a. Deobligate $19.6 million in expired DoD funds in the possession of
    the Department of the Treasury.

    Management Comments. The Acting Deputy Chief Financial Officer concurred
    and is working with the Department of the Treasury to identify and return expired
    and excess funds. The action is expected to be completed in November 2006.

         b. Work with the Department of the Treasury to readily identify and
    monitor funds sent to the Department of the Treasury by Military

                                       23
Interdepartmental Purchase Requests. The ultimate goal should be to obtain
recurring reports from FedSource that identify Military Interdepartmental
Purchase Requests, uncommitted fund balances, amounts obligated, amounts
expended, expired funds, and service fees charged.

Management Comments. The Acting Deputy concurred and is working the
Department of the Treasury to deobligate the expired funds specified by
November 2006 and to obtain recurring reports on funding. The recurring reports
are expected to be received by December 2006.

Audit Response. The comments are responsive.




                                  24
Appendix A. Scope and Methodology
   Scope. This audit was a joint review between the DoD OIG and Department of
   the Treasury OIG. The “Ronald W. Reagan National Defense Authorization Act
   for Fiscal Year 2006” requires the DoD IG and the Department of the Treasury IG
   to review procurement policies, procedures, and internal controls applicable to the
   procurement of products and services on behalf of DoD to determine whether
   they are adequate. The team reviewed purchases to ensure that funding rules and
   appropriation law applicable to DoD funds were followed, and that the FAR and
   DFARS procedures are followed by Department of the Treasury FedSource. As a
   result, we reviewed 61 task orders valued at $37.8 million at 10 DoD sites. The
   10 sites comprise 20 percent of the total dollar value for task orders issued in
   FY 2005. The FedSource, Beaufort Center, which FedSource closed due to
   significant contractual deficiencies, accounted for $26.1 million of the task orders
   reviewed. We selected 10 DoD organizations with high dollar value task orders.
   We visited:

          1)   U.S. Army Fort McCoy;
          2)   U.S. Army Human Resources Command;
          3)   Walter Reed Army Medical Center;
          4)   Naval Facilities Engineering Command Southwest;
          5)   Naval Facilities Engineering Command;
          6)   Headquarters United States Air Force, Deputy Chief of Staff,
               Manpower and Personnel;
          7)   U.S. Air Force Joint Personnel Recovery Agency;
          8)   452nd Civil Engineers, Air Force Reserve Command at March Air
                Reserve Base;
          9)   Office of the Under Secretary of Defense for Personnel and
                Readiness; and
         10)   Washington Headquarters Service.


   Work Performed. For each site, we judgmentally selected task orders from DoD
   activities with either high dollar values or high volume of task orders issued from
   fourth quarter FY 2005. The contract actions included new task orders and
   modifications to basic task orders. Although all contract actions reviewed were
   initiated in FY 2005, we did review orders awarded in FYs 2003 and 2004 in
   order to understand how modifications related to the basic contracts. We
   reviewed documentation maintained by the contracting organizations to support
   purchases made through FedSource. The purchase documents reviewed were
   MIPRs and acceptances, statements of work, cost proposals, sole-source letters,
   contract award documents, interagency agreements, customer request forms,
   COTR letters, determination and finding documents, task orders, surveillance
   plans, price negotiation memorandums, task order modifications, requests for
   proposals, IGCEs, orders for supplies and services, and miscellaneous
   correspondence. We interviewed program managers, finance officials, resource
   managers, analysts, directors, resource advisors, and COTRs covering purchase

                                       25
requirements and acquisition, types of funds used, competition, fair and
reasonable price determination, and the monitoring of contracts. Our audit
covered five major areas.

   •   We determined whether DoD requiring organizations had internal controls
       for defining requirements and planning acquisitions for purchases awarded
       by FedSource. For each task order reviewed, we determined whether
       there was a bona fide need, whether the requirement was defined, and
       whether acquisition planning was performed.

   •   The second area determined whether DoD organizations used the correct
       type of funds to fund the purchase awarded by FedSource. For each task
       order reviewed, we determined whether the organization had written
       procedures for issuing MIPRs, whether the organization was able to match
       MIPRs to corresponding contract actions, whether the purchase was
       funded with the correct appropriation, and whether the franchise fund was
       used for its intended purpose.

   •   The audit determined whether the Department of the Treasury adequately
       competed DoD purchases according to the FAR and DFARS.

   •   An analysis was made to determine whether the Department of the
       Treasury contracting officers adequately documented that the price paid
       for DoD purchases was fair and reasonable. For each task order reviewed,
       we determined whether the contracting officer adequately documented and
       supported the price paid.

   •   Lastly, we determined whether the Department of the Treasury and DoD
       established procedures for monitoring contractors’ performance. For each
       task order reviewed, we determined whether the contracting officer
       designated a COR to monitor the contractor’s performance and whether
       the Department of the Treasury had contract surveillance guidelines.

We performed this audit from July 2005 through June 2006 in accordance with
generally accepted government auditing standards.

Use of Computer-Processed Data. FedSource provided a list comprising the
universe of FY 2005 DoD purchases made through the Department of the
Treasury against the Treasury Franchise Fund. From the list, we judgmentally
selected high-value task orders for review. In FY 2005, FedSource issued 19,709
task orders for DoD valued at $405,126,583. In FY 2005, FedSource received
9,199 DoD MIPRs valued at $405,881,692. We visited three FedSource Regional
Centers responsible for task order contract award and administration (Baltimore,
St. Louis, and Los Angeles). We also visited the Bureau of the Public Debt,
Administrative Resource Center in Parkersburg, West Virginia, to review
overarching contracts such as multiple-award contracts, BPAs, single-award
contracts, and Small Business Administration contracts used to issue task orders.




                                   26
Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, Army, and Air Force have issued 16
    reports discussing Military Interdepartmental Purchase Requests or the
    Department of the Treasury Franchise Fund. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
    can be accessed at http://www.dodig.mil/audit/reports. Unrestricted Army reports
    can be accessed at http://www.hqda.army.mil. Unrestricted Air Force reports can
    be accessed at http://www.afaa.hq.af.mil.

GAO
    GAO Report No GAO-06-996, “Interagency Contracting: Improved Guidance,
    Planning, and Oversight Would Enable the Department of Homeland Security to
    Address Risks,” September 2006

    GAO Report No. GAO-05-456, “Interagency Contracting: Franchise Funds
    Provide Convenience, but Value to DOD is Not Demonstrated,” July 2005

    GAO Report No. GAO-05-274, “Contract Management: Opportunities to
    Improve Surveillance on Department of Defense Service Contracts,” March 2005

    GAO Report No. GAO-05-207, “High-Risk Series: An Update,” January 2005

    GAO Report No. GAO-03-1069, “Budget Issues: Franchise Fund Pilot Review,”
    August 2003

    GAO Report No. GAO-02-734, “Contract Management: Interagency Contract
    Program Fees Need More Oversight,” July 2002

DoD IG

    DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
    National Aeronautics and Space Administration,” November 13, 2006

    DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
    General Services Administration,” October 30, 2006

    DoD IG Report No. D-2005-096, “DoD Purchases Through the General Services
    Administration,” July 29, 2005

    DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Force Pentagon Communications Agency,” May 13,
    2003



                                       27
    DoD IG Report No. D-2002-110, “Policies and Procedures for Military
    Interdepartmental Purchase Requests at Washington Headquarters Services,”
    June 19, 2002

    DoD IG Report No. D-2002-109, “Army Claims Service Military
    Interdepartmental Purchase Requests,” June 19, 2002

Army

    Army Report No. A-2004-0244-FFB, “Information Technology Agency Contract
    Management,” May 25, 2004

    Army Report No. A-2002-0536-IMU, “Military Interdepartmental Purchase
    Requests, Logistics Assistance Group Europe,” August 21, 2002

Air Force

    Air Force Report No. F2005-0006-FBP000, “General Services Administration
    Military Interdepartmental Purchase Request, 353d Special Operations Group,
    Kadena AB, Japan,” November 10, 2004

    Air Force Report No. F2004-0046-FBP000, “General Services Administration
    Military Interdepartmental Purchase Request, 390h Intelligence Squadron,
    Kadena AB, Japan,” August 11, 2004




                                      28
         DoD Activity                    Purchase               No       Inadequate o r   Inadequate    Fund Issues   Inadequate Price
                                                               Market          No         Competition                  Reasonableness
                                                              Research    Interagency                                                    Surveillance
                                                                          Agreement

     Army

     1) Fort McCoy         1) Repair Young's Landing Runway               Inadequate                                                        None

                           2) Renovation of Main                          Inadequate                         1                              None
                           Gatelconstruction Inspection
                           Building with Canopy

                           3) Maintenance Building                        Inadequate                         1                              None
                           Construction

                           4) Renovation Building 453                     Inadequate                         1                              None

                           5) Renovation Building 454                     Inadequate                         1                              None

                           6) Tent Frames                                 Inadequate                                                      Inadequate

     2) Human Resources    7) Word Processor Shift Lead                   Inadequate                                                      Inadequate
         Command

E3                         8) Word Processor I Team Lead                  Inadequate                                                      Inadequate

                           9) Word Processor Team Lead                    Inadequate                                                      Inadequate

                           10) Word Processor I Shift Lead                Inadequate                                                      Inadequate

     3) Walter Reed Army   11) Radiology Instructor                       Inadequate                                                      Inadequate
         Medical Center

                           12) Computer Programmer with Ad                Inadequate                                                      Inadequate
                           Hoc

                           13) Computer Programmer N                      Inadequate                                                      Inadequate

                           14) Technical Writer                           Inadequate

                           15) Computer Programmer IV                     Inadequate                                                        None

                           16) Technical Writer                           Inadequate                                                      Inadequate

                           17) Word Processor 111                         Inadequate                                                      Inadequate

                           18) Supply Technician                          Inadequate                                                        None
 alenbapeu~                                                           alenbapeu~                               I uo!leas!u!rupv   peauo3 ( 9 ~
                                                                                                                          uep!uqgaL
     auoN                                                             alenbapeu~                          ABo10uq3a~uo!leuuojq loluas (SE
     auoN                                                             alenbapeu~                                       lloddns s3!$s@q ( p ~
 alenbapeul                                                           alenbapeu~                                    s a 3 ! ~ a gBu!laau@ua ( E E
 alenbapau~                                                           alenbapeu~                                 uoddns a~!$e4s!unupv (ZE
 a)enbapeu~                                                           alenbapeu~                        sa3!luas ABolouq3a~,uo!leuuoju~ ( 1 ~
     auoN                                                             alsnbapsu~                                 uoddns a~!leas!ururpv (OE
 alenbapeu~                                                           alenbapsu~                                 uoddns a~!leas!u!urpv (62
 alanbapeu~                                                           alenbapeu~                                   s a + u a g alnl3al!y3lv (82
                                                                                                                                                            pueuILuo3
                                                                                                                                                          lupaau!%u~
 a~enbapeu~                                                           alenbapeu~                                        uoddns urebold (LZ          pue sa~![!~edLEAEN ( S
 alenbapeu~                              Z                            a~enbapeu~                                     luaura3eldax a ~ [ (e 9~ ~
                                                                                                                           ~ o d d n Bu~uueld
                                                                                                                                      s
 alenbapeu~                              Z                            alenbapeu~                               pue '8uuaau!Bug 'sa!l!g!ln (SZ
     auoN                                                             a~enbapeu~                        leaomax pue luauraleqv solsaqsv (VZ
 alenbapeu~                              Z                            alenbapeu~                               uo!je3o[ax uo!)wodsue~~.(EZ
     auoN                                Z                            alenbapeu~                             ~ ! e d a xqlne,j punoBiapun (zz
                                                                                                                                                            Isamqlnos
                                                                                                                                                            pueUIUIo3
                                                                                                                                                          Buuaau!%ug
 alenbapeu~                              Z                            alenbapeu~                         lioddns uoy!s!nb3y pue uZ!saa (rz          pue say!l!~d [ e ~ e(p~
                                                                                                                                                                    KAEN
     auoN                                                             alenbapeu~                                lutns!ssv a~!lv4s!uppv (OZ
 alenbapeu~                                                           alenbapeu~                                           71313 IelauaO (6 I
   ueld                                                                  $uamaa~lv
a~us[l!aa~ng                                                             K~ua9s~a$u1 q ~ ~ s a s a a
    ON          ssaualqsuossa~                     uo!$!$admo3                 ON              $JYJuM
 a$snbapsu~
JO             a q ~ a~snbaplru~
                     d           s a n s s ~pund    a ~ a n b a p a u ~ ro a ~ s n b a p s u ~   ON                 asaqa~nd                            D!A!JJV
                                                                                                                                                              aoa
         DoD Activity                           Purchase                    No       Inadequate o r   Inadequate    Fund Issues   Inadequate Price       Inadequate or
                                                                           Market          No         Competition                  Reasonableness             No
                                                                          Research    Interagency                                                         Surveillance
                                                                                      Agreement                                                              Plan




    6)   Headquarters             37) Community Center Training                       Inadequate
          United States Air
          Force Manpower
         and Personnel

                              1   38) Entertainment                                   Inadequate                                                     I       None

                                  39) Family Child Care Public                        Inadequate                                                          Inadequate
                                  Awareness Campaign

                              1   40) Youth Fitness Marketing                         Inadequate                                                     I       None

                              I   41) Youth Fitness Activities and Kits               Inadequate

                              1   42) Boys and Girls Club of America                  Inadequate                                                     I       None

                              1   43) Construction Validation Study                   Inadequate                                                     I       None

    7)   Joint Personnel          44) Analyst N                                       Inadequate                                                     1       None
          Recovery Agency

                              1   45) Technician I1                                   Inadequate                                                     I       None

                              1   46) Analyst 111                                     Inadequate                                                     I       None
I
                              1   47) Analyst 111                                     Inadequate                                                     I       None

                              1 48) Analyst 111                                       Inadequate                                                     I       None



I   Defense Agency

    8) 452nd Civil                49) Taxiway Widening at March Air                      None
        Engineers                 Force Base

    9) Office of the Under        50) Community and Family Policy                        None
        Secretary for
        Personnel and
% i                                               5    3
                                                       d       2m
                                                                          0
                                                                          *                             3 3 8
                                                                                                  o z 3 =

                                                                                                             =gs5
Y
                         0            0                                                                 2
                                                  $                 2
                    0
s o = " =
gz-~=               5                 s                                                          5y
u
0
E;
n
  L3 b
          *
                    z    z8
                                                  - - -
                                                  $
                                                  E    F       C
                                                                    3     38
                                                                          c
                                                                          w
                                                                               z8          z8            9 2
                                                                                                        *g 5


                                                                    .
                                                                                                        VI




                                      ..                                  0    .       .
                                                                                                 b
                                                                                                 g8
                                                                                                     z
                                                                                                 ;. 2=
                                                                                                  c

                                                                                                        0




                                                                                                 " crl3
                                                                                                 P4

                                                                                                 -
               -------------
VI
                                                                                                  guz
3                                                                                                 O ' @ d .
VI
C(

u                                                                                                                 g
3
                                                                                                 2293
k                                                                                                ZflLm

$m .2=
a;'
$&
z9 ug
                         . ..     I
                                                                    .              . . -s         s s n
                                                                                                        eg
                                                                                                        uz

                                                                                                        -I
                                                                                                        2u
                                                                                                             5



L

: 25
                                                                                                             0)
                                                                                                             Y

Y                                                                                                       r    =
          8;
                    0

$t                                                                                                      B Up
                                                                                                        E
                    i?
qs 2
I
   Ski
     4                                                                                            :4 3z
                                                                                                  rn
                                                                                                        :
                                                                                                        kin


o 32
2 2 ;
      *


      z2
          =
                    .. .. ....                                            0    .       .
                                                                                                  0x5
                                                                                                  22 s
                                                                                                  zgj
                                      ti 2                          -
                                                                    m           *                 B
                                      g                             .sz        s
                                                                                           -      .-5
                    "5                      .gm                *               .-
                                                  k
                                                   z                               "
                                      (II


                                       5  s       'E
                                                               "x
                                                               e          $     2 5               B
                    e                                          3 E
                                                  *5
                                                                          =    w S 1              t
3
c
                    a
                    6    *
                                       $ a
                                      ~2
                                                                                .$ b
                                                                                                  5
                                                  -        $        f     5        g       a
                                                                                                  2
L

z                   8> .$              $!
                                      .-          "    B       u    s
                                                                          Y E , $
                                                                          8 5 .-2                 &
                    sE                                                                            z
                         m
                                                  5                       .*
                                                                          *
                         .            .
                                                                           2       g
                    ;
                    5
                    h
                         .c
                         g
                         4
                         h
                                      .?
                                      Z-    gE
                                            ha
                                                  "3


                                                  A
                                                       $       EZ 5,-a
                                                                       &G
                                                                          .-

                                                                               ^
                                                                                   $ I;
                                                                                   2
                                                                                   6
                                                                                     -"~
                                                                                           -3-
                                                                                                 <w-*
                                                                                                  r(



                                                                                                  a               ~
                    c
                    rn
                         N
                         a
                                      m
                                      m     ZS    2    w       m
                                                                    00s
                                                                    mrn   ,                ~ 2 . F


.-
0
.-*
 C
               V1
                         8
                          6b*
                              8
                              6   (                                                               CI .Y
                                                                                                        -F
                                                                                                        I

4              E         .F 2
                                                                                                  8%
:              5         .c 0
                         2    5
               8         3
                         -;
                                                                                                  -2 g
                                                                                                  m .?
                                                                                                  * Y

                         2z                                                                       Fi
Appendix D. Potential Antideficiency Act
            Violations
We identified the following 21 potential Antideficiency Act violations.
Recommendations to the Under Secretary of Defense (Comptroller)/ Chief Financial
Officer to initiate preliminary reviews regarding those potential violations are in the draft
audit report, “Potential Antideficiency Act Violations on DoD Purchases Made Through
Non-DoD Agencies.”

Office of the Under Secretary of Defense for Personnel
 and Readiness
           1. Counseling Services (Task Order LOS014553). The Office of the
              Under Secretary of Defense for Personnel and Readiness, Quality of Life
              Office issued MIPR DERM40092A329V for $19,000,000 on
              July 28, 2004, using FY 2004 O&M funds for counseling services in
              support of families as a result of the Global War on Terrorism and Iraqi
              Freedom. FedSource accepted the MIPR on July 30, 2004. The
              FedSource, Beaufort office issued task order contract number BEA002178
              for $18,357,487 on August 5, 2004. Task order BEA002178 was
              cancelled on December 16, 2004, leaving a $14,990,411 fund balance.
              Task order BEA002638 was issued for $14,483,489 on March 29, 2005, to
              continue the counseling services. The task order contract period of
              performance was March 14, 2005, through December 31, 2005. The
              FY 2004 funds were applied to reissue a task order in FY 2005. The
              FY 2004 funds were put on the reissued task order contract almost
              8 months after the funds were accepted by FedSource, Beaufort, and
              almost 6 months into FY 2006. The contract period of performance
              extends past 12 months from the MIPR acceptance date. Further, the
              elapsed 8 months from MIPR fund acceptance to the BEA00238 task
              order contract award is an unreasonable time and therefore, no bona fide
              need exists.

Air Force 452nd Air Mobility Wing
           2. Taxiway Repair (Task Order LOS014181). The March Air Reserve
              Base, 452nd Civil Engineers issued MIPR NG466443040031 for
              $2,997,000 to purchase taxiway widening and a runway repair at the
              March Air Reserve Base on September 30, 2004, using FY 2004 O&M
              funds, which expired on September 30, 2004. The MIPR was accepted on
              September 30, 2004. FedSource issued task order contract number
              LOS014181 for $1,188,042 on April 4, 2005, with a period of
              performance from December 1, 2004, through November 30, 2005. A
              contract has not been established for the runway. Use of FY 2004 funds to
              satisfy FY 2005 requirements does not meet the intent of the bona fide
              needs rule. In addition, use of O&M funds was improper for funding the
                                             33
          runway and taxiway. The Air Force Reserve Command, Chief, Civil
          Engineering, 452nd Mission Support Group approved funding for the two
          airfield projects and specifically approved $2,000,000 for the runway
          repair and $997,000 for the taxiway repair. The airfield projects should
          have been addressed as one project. Funding separately gives the
          appearance of splitting projects to avoid use of MILCON appropriated
          funds. The work contracted for on the task order was major construction
          and exceeds the $750,000 threshold for minor military construction;
          therefore, the MILCON appropriations should have been used. The 452nd
          Civil Engineers used the incorrect appropriation.

Joint Personnel Recovery Agency
       3. Management Assistant (Task Order STL001373). The JPRA acquired
          services from FedSource. Both RDT&E and O&M funds were used to
          fund the services, under the task order contract STL001373. FedSource
          initially issued the task order contract STL001373 for $33,972 on
          June 7, 2004, to obtain a management assistant to support the Joint
          Experimentation and Interoperability Directorate within the JPRA. The
          statement of work for the task order specified that a management assistant
          should be contracted to perform administrative and technical support,
          provide graphics and illustration support, maintain project plans and
          assessment schedules, and provide document and conduct file
          management support. These tasks should be funded with O&M funds.
          The JPRA issued four MIPRs to FedSource to fund this purchase of which
          three MIPRs cited RDT&E funds and one cited O&M funds. The first
          RDT&E MIPR is MIPR F1AF21494G001 for $192,000 issued on
          March 11, 2005. The next two RDT&E MIPRs are MIPR
          NMIPR049208779 and its amendment 1, totaling $392,798, of which
          $79,017 in RDT&E funds was allocated to task order contract
          STL001373. The total of $125,954, allocated from the three MIPRs
          designated with RDT&E appropriated funds, should have used O&M
          funds, not RDT&E funds. O&M funds should have been used to fund the
          entire task order contract. Therefore, JPRA used an incorrect
          appropriation.

       4. Analyst III for Urban Operations Project Support (Task Order
          STL001916). JPRA acquired professional services through FedSource
          for an analyst to conduct RD&TE tasks consisting of assessment
          operations project support experimentation, concept development, field
          testing, and research capabilities in the marketplace to fulfill program
          needs. JPRA issued five MIPRs to fund the purchase, represented by four
          RDT&E MIPRs and one O&M MIPR. JPRA allocated $201,040 from
          four RDT&E MIPRs to partially fund the purchase. FedSource issued the
          basic task order contract STL001916 for $78,568 on October 26, 2004,
          using RDT&E funds with a period of performance from November 1,
          2004, through February 28, 2005. Contract modifications were used to
          extend the period of performance, but no modification was issued
          exercising an option period. JPRA issued MIPR F1A215273G0001 for
          $178,000 on September 30, 2005, using FY 2005 O&M funds, of which

                                      34
   $48,747 applied to the contract, even though the work was for RDT&E on
   urban operations project support. This MIPR funded award number 2,
   modification 2. The analyst worked on the task order the entire period of
   performance and the work remained the same for the entire task order.
   Task order contract STL001916, modification 6 for $47,863, issued
   November 1, 2005, was used to fund award number 2, modification 2, for
   $48,747, and this contract action extended the period of performance
   through February 26, 2006. This resulted in use of FY 2005 funds for
   FY 2006 work. Use of FY 2005 O&M funds to satisfy requirements in
   FY 2006 does not meet the intent of the bona fide needs rule.
   Additionally, the task order contract is for RDT&E work and use of O&M
   funds was inappropriate for the task order; RDT&E funds should have
   been used to continue work on the project. Therefore, JPRA used an
   incorrect appropriation.

5. Analyst IV for Project Support (Task Order STL001457). JPRA
   acquired services for program management support, which required an
   analyst to provide technical guidance on concept technical
   demonstrations, develop management plans for projects, maintain
   financial records and provide project management functions. The
   NMIPR049208724 issued on May 5, 2004, for $196,980, did not contain a
   description or include a reference to a statement of work to provide a
   description that was specific, definite, and certain. Since no interagency
   agreement or a MIPR with a description exists to support the requirement,
   JPRA has a potential bona fide need violation.

6. Analyst III (Task Order STL001972). JPRA used task order contract
   STL001972 for an analyst to perform RDT&E on the future combat
   survivor evader locator project. The statement of work provides that an
   analyst will provide subject matter expertise in development and
   integration of combat survivor evader locator capabilities to include
   RDT&E for future combat survivor evader locator capabilities. The
   project scope of work comprises RDT&E work. However, JPRA funded
   the project with both RDT&E and O&M funds. The first four of the five
   MIPRs issued to support task order contract STL001972 were issued with
   RDT&E funds. The initial task order contract STL001972 for $51,414
   was issued on December 15, 2004, for an analyst assigned to work on
   combat survivor evader locator project support. JPRA sent
   MIPR F1AF215273G001 for $178,000 on September 30, 2005, using
   FY 2005 O&M funds, and allocated $49,849 to task order STL001972 to
   extend of the period of performance through February 2006. The analyst
   scope of work remained the same throughout the task order and should
   have continued to be funded with RDT&E funds. Therefore, JPRA used
   an incorrect appropriation. Additionally, FY 2005 funds were used to
   support work to be performed in FY 2006. Partial funds from
   MIPR F1AF215273G0001 were allocated to the task order to fund task
   order modification 2, issued on November 1, 2005. The contract
   modification was used to increase funds on the contract in the amount of
   $48,945 and extend the period of performance to February 28, 2006. Use
   of FY 2005 O&M funds to satisfy a FY 2006 requirement does not meet
   the intent of the bona fide needs rule.

                               35
       7. Analyst (Task Order STL001374). JPRA issued MIPR
          MIPR215273G001 for $178,000 on September 30, 2005, using FY 2005
          O&M funds to purchase an analyst for the Advanced Survivor Technology
          project. JPRA also issued MIPRF1AF215068G001 and amendments 1
          and 2 to fund $71,485 on task STL001374 with O&M funds. The
          statement of work states that project support will focus primarily on the
          JPRA RDT&E future Advanced Survivor Technology capabilities. The
          task order contract scope of work is RDT&E. RDT&E funds should have
          been used instead of O&M funds. Therefore, JPRA used an incorrect
          appropriation. In addition, FY 2005 funds were used to support work that
          was clearly to be performed in FY 2006. The basic task order contract
          was issued on June 7, 2004, for $64,907, with a period of performance
          from June 5, 2004, through September 30, 2004.
          MIPRF1AF215273G001, issued on September 30, 2005, allocated
          $73,627 to task order STL001374, and funded part of task order contract
          award number 3, modification 2, for $34,868, on November 1, 2005. This
          contract action extended the period of performance through January 31,
          2006. Use of FY 2005 O&M funds to satisfy a FY 2006 requirement does
          not meet the intent of the bona fide needs rule.

Directorate of Support Services—Fort McCoy Army Base
       8. Construction of Main Gate Canopy and Inspection Building (Task
          Order LOS008200). The Directorate of Support Services at Fort McCoy
          sent FedSource seven MIPRs, totaling $987,846, using FY 2003 Army
          Reserve O&M funds to construct a canopy and vehicle inspection building
          at the main gate. The basic contract in the amount of $896,930 was for the
          canopy and the inspection building. The canopy and inspection building
          were initially funded by MIPR3MDTMSCNPY for $268,629 and
          MIPR3VEHNISP01 for $665,703, both issued on September 30, 2003.
          The amount obligated on the main gate totaled $987,935, which exceeds
          the limit of $750,000 using O&M funds for minor construction; therefore,
          MILCON appropriated funds should have been cited. The Directorate of
          Support Services used an incorrect appropriation.

       9. Renovation of Building 454 (Task Order LOS013032). Fort McCoy
          Army Base, Directorate of Support Services building renovation exceeded
          the $750,000 limit using O&M funds for minor construction. MIPR
          MIPR4MDFE00107 for $813,767 was issued September 17, 2004, using
          FY 2004 Army Reserve O&M funds. The MIPR was for renovation of
          Building 454 into basic officer quarters, including improvements such as
          additional bathrooms to include all new components. FedSource issued
          the basic task order contract number LOS013032 for $762,883 on
          September 28, 2004. The building improvements support categorizing
          this project as new construction. The total amount obligated for the
          building, $820,355, exceeds the $750,000 limit use of O&M funds for
          minor construction. In addition, a second building (453) was being
          renovated with the same requirements and purpose. See purchase number
          10. As a result, Buildings 454 and 453 should have been combined as one

                                      36
   project and used MILCON funds instead of O&M funds. The combined
   cost of the work on the two buildings was $1,639,122. The project was
   split to avoid the long approval process necessary to obtain MILCON
   funds. Therefore, Directorate of Support Services at Fort McCoy used
   incorrect appropriations.

10. Renovation of Building 453 (Task Order LOS008119). Building 453
    was being renovated from a barracks into a visitor officer quarters at
    Fort McCoy. The Building 453 layout was reconfigured and
    improvements made that supports new construction, including new
    bathrooms, fixtures, counters, tubs, and closets. Improvements resulted in
    construction versus repair. Defense Support Services personnel at
    Fort McCoy exceeded the minor construction $750,000 threshold by
    sending MIPR3MDFE00085 for $784,252 on September 24, 2003, and an
    amendment for $2,493 on July 12, 2004, to FedSource. The total cost of
    $786,746 uses O&M funds. Although the task order contract was awarded
    by FedSource on October 2, 2003, for $735,214, the amount did not
    include the FedSource fee. The planning for both buildings was in 2003
    and requests for MILCON funds should have occurred then. Therefore,
    Directorate of Support Services at Fort McCoy used an incorrect
    appropriation.

11. Construction of Maintenance Buildings (Task Order LOS007993).
    Directorate of Support Services personnel at Fort McCoy did not combine
    task order LOS007993 for $684,639 and task order LOS007994 for
    $684,639 that were both issued by FedSource on September 12, 2003, to
    construct four new metal prefabricated maintenance buildings. The total
    contract cost for the two task orders was $1,369,278. Each of the two task
    orders was for the construction of two maintenance buildings; however,
    bid proposal data established provision for bidding up to four buildings.
    Therefore, one task order contract should have been issued versus splitting
    the project. Issuing two separate task orders resulted in keeping the
    contract award below the $750,000 MILCON threshold. The combined
    contract for the two task order contracts exceeded the $750,000 O&M
    minor MILCON threshold. MIPR MIPR3MDFE00078 for $730,304 was
    issued September 9, 2003, and amendment 1 for $8,331 was issued on
    December 29, 2004, for a total of $738,635 to fund two maintenance
    buildings under task order contract LOS007993. Task order LOS007994
    for two other buildings was funded with MIPR3MDFE00079 for
    $730,304, issued on September 9, 2003. All buildings were built by the
    same contractor. Splitting of construction projects appears to have
    occurred to circumvent the cost limitation of $750,000 for minor
    construction. Therefore, the Directorate of Support Services at Fort
    McCoy used an incorrect appropriation.




                                37
Headquarters, Air Force Deputy Chief of Staff, Manpower
 and Personnel
       12. Family Child Care Public Awareness Campaign and Family Child
           Care Conference (Task Order STL002274). The Headquarters, Air
           Force Installation and Logistics Service is now the Headquarters, Deputy
           Chief of Staff, Manpower and Personnel. The Headquarters, Deputy
           Chief of Staff, Manpower and Personnel issued MIPR NMIPR049209876,
           for $1,900,000 on September 13, 2004, using FY 2004 O&M funds, which
           expired on September 30, 2004. The task order for $1,027,640 was
           awarded on September 22, 2004. The Headquarters purchased a
           Comprehensive Public Awareness Campaign to heighten awareness
           among current and potential customers of the Extended Duty Child Care,
           Mildly Ill, Missile Care, Air National Guard and Air Force Reserve Home
           Community Care, Returning Home Care, and Family Child Care Subsidy
           programs. The funds were also for the 2005 Family Child Care
           Conference to support families of deployed Air National Guard and Air
           Force Reserve members, tentatively scheduled for July 25–27, 2005.
           Additionally, FedSource issued modification 3 on September 19, 2005, for
           a “no increased cost to the Government” extension until
           January 31, 2006, effective September 21, 2005. The contract was
           extended for a period beyond the 12-month contract period from the task
           order award date. Use of FY 2004 O&M funds to satisfy FY 2005
           requirements does not meet the intent of the bona fide needs rule.

       13. Boys and Girls Club of America (Task Order STL002277). The
           Headquarters, Air Force Deputy Chief of Staff, Manpower and Personnel
           issued MIPR NMIPR049209729 for $500,000 on August 16, 2004, using
           FY 2004 O&M funds, which expired September 30, 2004. The
           Headquarters purchased national affiliation fees for Boys and Girls Club
           of America for all participating Air Force youth centers for 2005 and for
           the annual national conference. FY 2004 funds were used to prepay
           FY 2005 fees and conference costs and the statement of work provided
           that conference costs would be incurred in 2005. The task order for
           $484,500 was awarded on September 27, 2004. Use of FY 2004 O&M
           funds to satisfy FY 2005 requirements does not meet the intent of the bona
           fide needs rule.

       14. Youth Fitness Activities and Kits (Task Order STL002276). The
           Headquarters, Air Force Deputy Chief of Staff, Manpower and Personnel
           issued MIPR NMIPR049209876, for $1,900,000 on September 13, 2004,
           using FY 2004 funds, and allocated $80,000 to task order STL002276.
           The MIPR funds expired on September 30, 2004. The MIPR funds were
           for professional services through FedSource for youth fitness activities
           and kits. FedSource awarded task order STL002276 for $82,620 on
           September 22, 2005, with a period of performance from September 23,
           2004, through September 22, 2005. However, the activity packets and
           sport kits were not received in FY 2004. Receipt of goods after the DoD
           appropriation expired could not be justified because of delivery time,
           production lead-time, or unforeseen delays. Use of FY 2004 O&M funds
                                       38
          to satisfy a FY 2005 requirement does not meet the intent of the bona fide
          needs rule.

       15. Entertainment (Task Order STL002433). The Headquarters, Air Force
           Deputy Chief of Staff, Manpower and Personnel acquired professional
           services through FedSource to purchase entertainment services, using
           MIPR NMIPR049209768 for $260,000, issued August 24, 2004, and
           amendment 1 for $200,000, issued September 9, 2004. They used
           FY 2004 O&M funds, which expired on September 30, 2004. FedSource
           issued task order contract STL002433 for $19,959 on September 8, 2004,
           to obtain quality, live, professional entertainment for the period from
           September 1, 2004, through September 1, 2005. The period of
           performance for the first task, Waking Norman, was scheduled to begin on
           October 21, 2004, and end November 11, 2004. Use of FY 2004 O&M
           funds to satisfy FY 2005 requirements does not meet the intent of the bona
           fide needs rule.

Naval Facilities Engineering Command, Southwest
       16. Transportation Relocation (Task Order LOS013626). The Naval Base
           Ventura County Public Works is now the Naval Facilities Engineering
           Command (NAVFAC), Southwest. NAVFAC Southwest acquired
           professional services through FedSource for the relocation of the heavy-
           duty truck hoist support. NAVFAC Southwest issued four MIPRs totaling
           $248,000 in September 2004, using FY 2004 O&M funds to obtain
           services and deliverables through the performance of the relocation of the
           heavy-duty truck hoist. The MIPRs were accepted in September 2004.
           FY 2004 O&M funds partially funded a contract awarded on January 8,
           2005, for $177,155. Use of FY 2004 O&M funds to satisfy FY 2005
           requirements does not meet the intent of the bona fide needs rule.

       17. Valve Replacement (Task Order LOS014128). NAVFAC Southwest
           acquired professional services through FedSource using MIPR
           N6923204MPX8141 for $95,000, issued on May 17, 2004. This was used
           to purchase water valve replacement support in the housing area at Naval
           Base Ventura County, Point Mugu, California. FedSource issued task
           order contract LOS014128 for $81,056 on March 25, 2005.
           Approximately 10 months lapsed between MIPR acceptance and contract
           award. Therefore, use of FY 2004 O&M funds to satisfy FY 2005
           requirement does not meet the intent of the bona fide needs rule.

       18. Design and Acquisition Support (Task Order LOS013101).
           NAVFAC Southwest acquired professional services through FedSource
           for Design and Acquisition Support. NAVFAC Southwest issued MIPR
           N6923204MPU8222 for $227,939 and amendment 1 for $9,876 on
           September 17, 2004. The basic MIPR was accepted on September 22,
           2004. The MIPRs cited FY 2004 O&M funds, which expired on
           September 30, 2004. Task order LOS13101 was awarded on
           September 30, 2004, for design, acquisition, engineering, program
           development, and database management support services. The task order

                                       39
          award specified the period of performance to begin on September 30,
          2004, and continue through November 30, 2005,
          2 months beyond the 12-month contract performance limitation. In
          addition, FedSource Los Angeles issued modification 1 on November 23,
          2005, for a “no increased cost to the Government” extension until
          February 28, 2006, effective November 30, 2005. The task order
          exceeded the contract period of 12 months for a severable contract. FY
          2004 funds may have been used for the extension. Use of FY 2004 O&M
          funds to satisfy a FY 2006 requirement does not meet the intent of the
          bona fide needs rule.

       19. Repair Underground Vaults in Parking Apron (Task Order
           LOS013406). NAVFAC Southwest purchased services through
           FedSource to repair underground vaults in the parking apron. NAVFAC
           Southwest issued MIPR MIPRN6923204MPX8223 for $177,000 on
           September 28, 2004, citing FY 2004 funds. FedSource accepted the
           MIPR on September 28, 2004. However, the task order was not awarded
           until November 18, 2004, approximately 2 months after MIPR acceptance.
           Use of FY 2004 O&M funds to satisfy FY 2005 requirement does not
           meet the intent of the bona fide needs rule.

       20. Utilities, Engineering, and Planning Support (Task Order
           LOS013139). NAVFAC Southwest purchased services through
           FedSource to provide management and engineering support services to
           satisfy the overall operational objectives of the NAVFAC Southwest
           Utilities and Planning Division. NAVFAC Southwest issued MIPRs
           N6923204MPX8195 for $135,000 and N6923204MPX8196 for $31,000
           on September 17, 2004, citing FY 2004 O&M funds. FedSource accepted
           the MIPRs on September 22 and September 23, 2004. Task order
           LOS013139 was awarded on October 4, 2004, for $578,850. Also,
           NAVFAC issued MIPR N6923204MPX8206 for $153,000 and MIPR
           N6923204MP27139 for $20,000 on September 29, 2004, citing FY 2004
           O&M funds. Use of FY 2004 O&M funds to satisfy FY 2005
           requirements does not meet the intent of the bona fide needs rule.

Washington Headquarters Service
       21. Applications Consultant (Task Order BAL118884). The Washington
           Headquarters Service purchased services through FedSource for an
           applications consultant. Washington Headquarters Services issued
           Interagency Agreement DHIA 40362 for $13,000, citing FY 2004 funds.
           The Interagency Agreement was accepted on September 29, 2004, in
           FY 2004, but the task order contract for $11,944 was awarded on
           October 27, 2004. Use of FY 2004 O&M funds to satisfy FY 2005
           requirement does not meet the intent of the bona fide needs rule.




                                     40
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
  Director, Program Analysis and Evaluation
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Army Inspector General
Auditor General, Department of the Army
Commander, U.S. Army Fort McCoy
Commander, U.S. Army Human Resources Command
Commander, U.S. Walter Reed Army Medical Center

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Facilities Engineering Command Southwest
Commander, Naval Facilities Engineering Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Headquarters United States Air Force, Deputy Chief of Staff, Manpower
  and Personnel
Commander, U.S. Air Force Joint Personnel Recovery Agency
Commander, 452nd Civil Engineers, Air Force Reserve Command at March Air Reserve
  Base

Combatant Commands
Inspector General, U.S. Joint Forces Command



                                          41
Other Defense Organizations
Washington Headquarters Service

Non-Defense Federal Organizations
Bureau of the Public Debt, Department of the Treasury
FedSource, Department of the Treasury
Inspector General, Department of the Treasury
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                          42
Office of the Under Secretary Acquisition,
Technology, and Logistics Comments




                       43
Office of the Under Secretary of Defense
(Comptroller)/ Chief Financial Officer
Comments




                       44
45
Managing Director, Treasury Franchise Fund
Comments




                     46
47
48
49
50
51
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Terry L. McKinney
Eric B. Edwards
Martin I. Gordon
Monelle K. Riviere
Sherney W. Alexander
Brandy L. Smith
Meredith H. Johnson




                                   53
